<html>
<title> - TIMUCUAN ECOLOGICAL AND HISTORIC PRESERVE; MARTIN LUTHER KING LAND EXCHANGE; ESTABLISH LEWIS AND CLARK NATIONAL HISTORICAL PARK; AND SAND CREEK MASSACRE HISTORIC SITE</title>
<body><pre>[Senate Hearing 108-626]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-626
  TIMUCUAN ECOLOGICAL AND HISTORIC PRESERVE; MARTIN LUTHER KING LAND 
EXCHANGE; ESTABLISH LEWIS AND CLARK NATIONAL HISTORICAL PARK; AND SAND 
                      CREEK MASSACRE HISTORIC SITE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 1672                               S. 1789

                           S. 2167                               S. 2173

                           H.R. 1616


                                     

                               __________

                              MAY 20, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-145                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel, U.S. Senator from Hawaii.....................     6
Alexander, Carol J., Executive Director, Ritz Theatre and LaVilla 
  Museum, Jacksonville, FL.......................................    26
Brady, Steve, Sr., Co-Chair, Sand Creek Massacre Historic Site 
  Project, Lame Deer, MT.........................................    19
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     3
Cantwell, Hon. Maria, U.S. Senator from Washington...............     2
Hoffman, Paul, Deputy Assistant Secretary, Fish and Wildlife and 
  Parks, Department of the Interior..............................     7
Miller, Hon. Zell, U.S. Senator from Georgia.....................     3
Nelson, Hon. Bill, U.S. Senator from Florida.....................     4
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Ziak, Rex, Lewis and Clark Author and Historian, Naselle, WA.....    23

                               APPENDIXES

                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    39

 
                   TIMUCUAN ECOLOGICAL AND HISTORIC 
 PRESERVE; MARTIN LUTHER KING LAND EXCHANGE; ESTABLISH LEWIS AND CLARK 
    NATIONAL HISTORICAL PARK; AND SAND CREEK MASSACRE HISTORIC SITE

                              ----------                              


                         THURSDAY, MAY 20, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The committee will come to order.
    Welcome. Thank you for being here. I want to welcome the 
representatives from the Department of the Interior and other 
witnesses for today's National Parks Subcommittee hearing.
    Our purpose is to hear testimony on four Senate bills and 
one House bill: S. 1672, a bill to expand the Timucuan 
Ecological and Historic Preserve in Florida; S. 1789 and H.R. 
1616, to authorize the exchange of certain lands within the 
Martin Luther King, Junior, National Historic site for lands 
owned by the city of Atlanta, Georgia, and for other purposes; 
S. 2167, a bill to establish the Lewis and Clark National 
Historic Park in the States of Washington and Oregon, and for 
other purposes; S. 2173, a bill to further the purposes of the 
Sand Creek Massacre National Historic Site Establishment Act of 
2000.
    I would like also to mention that we originally had planned 
for S. 1808, a bill to provide for the preservation and 
restoration of historic buildings at historically women's 
public colleges and universities, in this hearing. It has been 
removed from the agenda at the request of the sponsor.
    Let me again thank all the witnesses for being here, and I 
look forward to their testimony and the opportunity for us to 
discuss these five bills.
    Let me turn now to the Senator from Colorado.
    [The prepared statements of Senators Cantwell and Miller 
follow:]

        Prepared Statement of Hon. Maria Cantwell, U.S. Senator 
                      From Washington, on S. 2167

    Thank you, Mr. Chairman. This is a busy hearing, but I wanted to 
take a few moments to express my strong support for one of the bills 
before us, the Lewis and Clark National Historical Park Act of 2004.
    Lewis and Clark's epic journey to explore and chart the western 
frontier of our fledgling nation has enormous significance in American 
history, particularly to those of us in the Pacific Northwest where the 
expedition achieved its momentous goal of reaching the Pacific Ocean 
almost 200 years ago.
    The Lewis and Clark expedition was America's great odyssey, 
symbolic of our Nation's core values of teamwork, courage, science, and 
opportunity. And teaching our children about their journey helps the 
next generation understand what makes America great.
    That's why I was proud to introduce the bill before us in March 
along with my fellow Committee members, Senators Smith and Wyden, and 
my Washington State colleague Senator Murray.
    This bill protects three sites along the lower Columbia River that 
played crucial roles during the Corps of Discovery expedition. It will 
protect Clark's Dismal Nitch, where the expedition first viewed the 
ocean and was trapped during a horrific six-day storm.
    It will also set aside Station Camp, where the group held a 
historic vote among all group members--including Sacagawea and York--on 
where the expedition should stay for the winter. Finally, this bill 
will preserve Cape Disappointment, marking the furthest point westward 
reached by Lewis and Clark, as well as create a national memorial there 
to commemorate Thomas Jefferson's vision of a country ``from sea to 
shining sea.''
    The legislation also designates these sites as the ``Lewis and 
Clark National Historic Park,'' and includes Fort Clatsop National 
Memorial. The bill also authorizes management partnerships with 
Oregon's Ecola State Park and Fort Stevens State Park, and Washington's 
Fort Columbia State Park and Cape Disappointment State Park. Together, 
these federal and state lands will help tell the story of the explorers 
at the bicentennial next year and for many years to come.
    Mr. Chairman, I am proud of the overwhelming local and national 
support this effort has received. I'd like to submit for the record a 
letter supporting this bill from Washington State Senator Mark Doumit 
and State Representatives Brian Hatfield and Brian Blake, who represent 
this area in the state legislature. Their letter states that this bill 
``enjoys the broad support of local citizens, county, state, and 
municipal governments, port districts, civic groups, and public safety 
organizations.'' And they noted that ``Local stakeholders were involved 
with its development at every stage, providing input from inception 
until final drafting.''
    I would also like to note the letters of support from the States of 
Washington and Oregon, local county commissioners, nearby city 
governments, and several community organizations involved with Lewis 
and Clark commemorative activities. These letters are printed as part 
of the National Park Service's boundary study.
    I also commend the State of Washington for committing approximately 
$6.5 million to realigning a highway and creating a riverside park at 
Station Camp that will commemorate this part of the Lewis and Clark 
story. If this bill becomes law, the State plans to generously donate 
the key portion of the site, about 15 acres, along with the new 
improvements to the National Park Service.
    Finally, I want to take this opportunity to publicly thank Interior 
Secretary Gale Norton, who recently traveled to the Pacific Northwest 
and expressed support for this bill. I look forward to working with the 
Interior Department to ensure that these sites can be opened next year 
to welcome the million plus visitors the region expects at the 
bicentennial celebrations.
    Mr. Chairman, much has been said about the incredible bravery of 
the Lewis and Clark expedition and the incredible hardships they 
overcame to achieve its mission. It took them a year and half and over 
4,000 miles to reach the mouth of the Columbia River and we are still 
benefiting from the invaluable record of the native cultures and the 
flora and fauna they encountered along the way.
    But I'd also like to point out another crucial result of their 
expedition that I believe is too often overlooked. Prior to the 
expedition, the United States' claim to the Pacific Northwest, which I 
now represent, was tenuous at best and based on American sea captain 
Robert Gray's discovery of the Columbia River in 1792. Lewis and 
Clark's expedition was crucial to securing the claim and the eventual 
creation of all the states in the Pacific Northwest.
    It is for these reasons I am especially pleased to have noted Lewis 
and Clark author and historian, and lifetime southwest Washington 
resident, Rex Ziak here today.
    Rex has devoted many years to researching the details of Lewis and 
Clark's adventures near his home and he recently wrote a book ``In Full 
View a True & Accurate Account'' which chronicles the thirty days from 
November 7 to December 7, 1805 when Lewis and Clark reached the Pacific 
Ocean. Rex, I appreciate you being here today and look forward to your 
testimony.
    Mr. Chairman, last week Illinois celebrated the 200-year 
anniversary of the Corps of Discovery's point of departure from Camp 
River DuBois, then an outpost on the Western edge of our nation.
    That means we have a year and a half until the 200-year 
celebrations reach our Pacific shores in November of next year. So it 
is my sincere hope that I can work with you and the other members of 
the Committee, as well as the National Park Service and the States of 
Washington and Oregon, to ensure these sites are ready to educate, 
commemorate, and be enjoyed by Americans in time for next year's Lewis 
and Clark Bicentennial in the Northwest.

                                 ______
                                 
  Prepared Statement of Hon. Zell Miller, U.S. Senator From Georgia, 
                               on S. 1789

    I want to thank the Chairman and members of the committee for 
allowing me to express my support for S. 1789, the Martin Luther King, 
Jr. National Historic Site Land Exchange Act.
    As you know, S. 1789 would authorize the exchange of land owned by 
the National Park Service for land of equal or greater value with the 
City of Atlanta, by amending Public Law 94-428, the act that 
established the Martin Luther King, Jr. National Historic Site.
    Congressman John Lewis and I introduced this land exchange 
legislation because its passage would allow the Martin Luther King, Jr. 
National Historic Site to create emergency access to and from the site. 
The Martin Luther King, Jr. National Historic Site Visitor Center and 
Museum is landlocked and currently has no emergency access, making it 
very difficult for firefighting equipment to reach the facility. The 
City of Atlanta will benefit from this exchange by acquiring property 
from the National Park Service and in turn encouraging commercial 
development in the community.
    I would like to note that both the National Park Service and the 
City of Atlanta are in strong support of this bill.
    I appreciate your holding this hearing and considering our bill. I 
ask for your support of this important legislation and its eventual 
passage by the entire Senate.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. Let me speak 
just for a moment on S. 2173, the Sand Creek Massacre Historic 
Site.
    I want to welcome Steve Brady who was at my office a little 
bit ago. Steve is one of the leaders of our traditional people 
in the Northern Cheyenne in Lame Deer, Montana, and he is co-
chair of the Sand Creek Massacre Site Project, attended all the 
meetings, and he will be testifying. I appreciate him being 
here.
    On the morning of November 29, 1864, approximately 700 
soldiers that were really Colorado militia, who mustered out 
after they did this heinous deed, attacked a peaceful 
encampment on the Cheyenne and Arapaho Indians located on the 
banks of the Sand Creek, which is in southeastern Colorado. The 
creek is not there anymore. It is pretty much dried up. But 
they used small arms and howitzer fire and many of the Indian 
warriors were not there. It was mostly just a few old men, 
women, and children. And they committed one of the most 
atrocious crimes in the American West. Some of the people who 
were being shot at managed to escape, but most of the elderly 
could not run. The children could not run. The women did not, 
and so they just systematically slaughtered about 150 Cheyenne 
and Arapaho people.
    The following day, these same soldiers, if we can use that 
word very loosely, walked among the dead looking for survivors. 
And even after the people were dead, they committed some of the 
most heinous atrocities you ever heard of, cutting off parts of 
their bodies, putting them on their rifles. They later paraded 
through the streets of Denver and were commended for this 
action by the Rocky Mountain News at the time.
    That site has been known for a long time to the people of 
Colorado, and in the years that followed, many individuals have 
tried to raise the awareness of that Sand Creek Massacre and 
the enormity of what happened. Mr. Brady's organization, really 
the Sand Creek Massacre Historic Site Project, has been a very 
strong part of that effort.
    In the 106th Congress I introduced the Sand Creek Massacre 
National Historic Site Establishment Act, which the President, 
President Clinton at the time, did sign into law. That act 
authorized the Secretary of the Interior to begin acquiring 
land near the site of the massacre for the eventual 
establishment of a permanent memorial in remembrance of the 
lives that were so violently and senselessly taken.
    At the time of the enactment of that law, only a small 
portion of the significant land was available to be acquired, 
but since that time the Cheyenne and Arapaho tribes of Oklahoma 
have acquired a critical piece of property, which was called 
the Dawson Ranch. It belonged to a rancher and his wife. About 
1,400 acres, as I remember, was in that parcel. But that is 
very crucial because of its size and location, right in the 
center of the massacre site.
    This bill before us today would take this land into trust 
for the Cheyenne and Arapaho tribes of Oklahoma to become part 
of the Sand Creek Massacre National Historic Site. With the 
addition of this land, the National Park Service will be able 
to recommend to the Secretary that the site be officially 
established.
    I am very proud of the tribes' commitment to this effort. I 
look forward certainly to hearing Mr. Brady's testimony.
    With that, thank you for scheduling this hearing.
    Senator Thomas. Thank you, Senator.
    The Senator from Florida.

          STATEMENT OF HON. BILL NELSON, U.S. SENATOR 
                          FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I am happy to be here to tell you about a piece of land 
that has been donated to the National Park Service and the 
passage of this bill would memorialize that to be an 
accomplished fact.
    For only 8\1/2\ acres, it might be somewhat unusual to be 
spending this much attention, but I will tell you that this 
particular area, which is the beach area of Amelia Island is 
one of my favorite places on the planet. Every chance that I 
get to go there, it is a wonderful place to let the pressures 
of Washington, D.C. just kind of melt away.
    Amelia Island is the northern-most barrier island on the 
Atlantic in the State of Florida. Its northern boundary is the 
St. Mary's River, which is the State line, and which is the 
river that now our Trident submarines traverse in and out of as 
they are going to the big Trident sub base at King's Bay, 
Georgia.
    To the south is this beautiful island that has been 
preserved, and it is now developed on a large part of it, but 
it has been developed in a high quality so that a lot of the 
natural beauty and the historical significance has remained.
    It is an interesting part of our history because we were a 
segregated society for so many years. Back in 1932 there was 
established what back then was known as the Black Beach. This 
has happened in other parts of the South. It is true also in 
Miami on one of the barrier islands there called Virginia Key. 
It became a beach that African-Americans would use and would 
own the adjacent land. A substantial African-American community 
is still there today.
    As part of this American Beach, there is a unique 
geological feature which has now been donated, offered to be 
donated, by the Amelia Island Plantation for a very high 
historic dune. Obviously, the point of all of this is to 
preserve this 8\1/2\ acres, which is the highest point on 
Amelia Island.
    The American Beach Historic District was listed on the 
National Register of Historic places in recognition of its 
African-American cultural heritage, and the natural value of 
this 8\1/2\ acre section of beach, known as Nana, we are 
seeking inclusion in the Timucuan Preserve. It is also not only 
the tallest natural dune on Amelia Island, but it is the 
habitat for the threatened loggerhead turtle and the critical 
calving grounds for the north Atlantic right whale.
    Companion legislation was passed in the House. This has 
been modified from 12\1/2\ to 8\1/2\. If there is any confusion 
about that, that is what has been donated.
    I appreciate the efforts of MaVynee Betsch. She is 
affectionately known as the Beach Lady. I appreciate the 
efforts of Carol Alexander, who you are going to hear from in 
just a few minutes, and of Jack Healen who is the president of 
the Amelia Island Plantation, all who have joined together to 
preserve this piece of African-American history.
    The Beach Lady is the inspiration for this legislation. She 
is the great granddaughter of A.L. Lewis who was the first 
owner of this beach, and he was a longtime champion of 
protecting this dune, series of dunes called Nana.
    So, Mr. Chairman, I wanted to come. This was very important 
to me personally. I know it well. It is a beautiful part of our 
flora and fauna and it is a beautiful part of us trying to 
preserve the historical significance of this area. Thank you, 
Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    How do you pronounce the name of the preserve?
    Senator Nelson. Timucuan. It is a name that comes from an 
Indian tribe that was very early in Florida all throughout 
these parts of northeastern Florida. The land that was named La 
Florida, which as the land of flowers, came from the Spanish 
when they first came.
    Senator Thomas. Thank you, sir. I appreciate it.
    Senator Nelson. Thank you.
    Senator Thomas. The Senator from Hawaii.
    [The prepared statement of Senator Nelson follows:]

  Prepared Statement of Hon. Bill Nelson, U.S. Senator From Florida, 
                               on S. 1672

    I want to thank the Chairman and Ranking Member for holding this 
National Parks Subcommittee hearing and receiving testimony on my bill 
S. 1672 which seeks to expand the boundaries of the Timucuan Preserve 
to include an 8.5 acre stretch of untouched beach that was one of the 
few integrated beaches in the 1930s.
    Today, American Beach which includes this 8.5 acre stretch at issue 
today, is the only remaining example of a beach resort established for 
use by AfricanAmericans during the divisive `Jim Crow' era of American 
history.
    In January 2002, the American Beach Historic District was listed on 
the National Register of Historic Places in recognition of its 
AfricanAmerican cultural heritage.
    In terms of its natural value, the 8.5 acre section of beach known 
as ``Nana'' seeking inclusion in the Timucuan Preserve is the tallest 
natural dune on Amelia Island and habitat for the threatened loggerhead 
turtle and critical calving grounds for the North Atlantic Right Whale.
    The House passed companion legislation to this bill on May 18, 
2004, slightly modifying the bill to correct the acreage donated from 
12.5 acres to 8.5 acres which I support.
    I appreciate the efforts of MaVynee Betsch, affectionately referred 
to as the ``Beach Lady,'' Carol Alexander, and Jack Healan, President 
of Amelia Island Plantation to preserve this piece of AfricanAmerican 
history.
    The Beach Lady is the inspiration for this legislation. She is the 
great grand daughter of A.L. Lewis, the first owner of this beach, and 
a long time champion of protecting ``Nana.''
    Carol Alexander, who will testify today, has worked tirelessly to 
ensure this piece of African-American history is preserved.
    And Jack Healan, President of the Amelia Island Plantation, donated 
the untouched beach to the Park Service to make this possible.
    Thank you again for the opportunity to address this Subcommittee 
and I urge your support for this bill.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this hearing.
    All of the bills of this afternoon's agenda share an 
important new theme. For many years, the historic sites and 
monuments administered by the National Park Service focused 
principally on the history of European settlers. The 
composition of bills we are hearing today reflects the broad 
diversity of American culture, from the story of American Beach 
in Florida and its place in African-American family life from 
the 1920's to the 1950's, to the home of Martin Luther King and 
his role in the civil rights movement, from Lewis and Clark and 
their expedition into what was then uncharted territory for the 
American Government, to Sand Creek in Colorado, the site of a 
terrible massacre of members of the Cheyenne and Arapaho 
tribes. These bills cover quite a broad spectrum of American 
history.
    Mr. Chairman, I briefly reviewed these bills yesterday 
afternoon and it appears to me that most of them are 
noncontroversial, and I hope that we will be able to move them 
quickly through the committee.
    One of the bills on the agenda today is S. 2167, Senator 
Cantwell's bill to establish the Lewis and Clark National 
Historical Park in Washington and Oregon. Senator Cantwell is 
unable to be here today. I know she is very disappointed not to 
be here because of her strong support for this bill. But I 
would ask, Mr. Chairman, that her statement and statements in 
support of the bill from several members of the Washington 
State legislature be included in the hearing record.
    Senator Thomas. They will be included.
    Senator Akaka. I would like to add my welcome to all of the 
witnesses and look forward to hearing their testimony. Thank 
you very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    Lewis and Clark did not make it quite to Hawaii, did they?
    Senator Akaka. No.
    [Laughter.]
    Senator Thomas. We have a good group of witnesses today. On 
the first panel, Deputy Assistant Secretary of the Interior 
Paul Hoffman. I am always glad to have Paul here. He is with 
the Fish and Wildlife and Parks Department. Thank you, sir.

STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT SECRETARY, FISH AND 
         WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Thank you, Mr. Chairman, members of the 
committee. It is my pleasure to be here again to testify on 
these four bills. I will give you just a brief scorecard 
summary.
    S. 1672, the Timucuan Ecological and Historic Preserve 
Boundary Expansion Act. The Department of the Interior supports 
that bill.
    S. 1789, the Martin Luther King, Junior, National Historic 
Site land exchange. The Department supports that bill.
    S. 2167, the Lewis and Clark National Historical Park's 
name change and expansion. The Department supports that bill 
with some technical amendments, which I will discuss in a 
moment.
    And S. 2173, the Sand Creek Massacre National Historic Site 
land transfer. The Department supports that bill with some 
amendments, as well.
    I have submitted some written testimony, which I would like 
to be made part of the record.
    Senator Thomas. It shall be.
    Mr. Hoffman. And I will take this opportunity to apologize 
for the late arrival of the Sand Creek Massacre testimony.
    S. 1672, Timucuan Ecological and Historic Preserve boundary 
expansion. As I indicated, the Department supports this bill. 
This is another theme that these bills represent and that is 
the theme of partnerships in the management of national parks. 
This is one of those partnership parks. The total acreage is 
46,000 acres, of which less than 10,000 of those acres are 
owned by the National Park Service. The rest is county, State, 
city-owned lands, and those agencies share in the management of 
that park as well.
    This bill would add 12.5 acres to the preserve. It would be 
a noncontiguous unit. It is across the river on Amelia Island, 
as Senator Nelson noted. 8.5 of the acres are donated to the 
National Park Service by the Amelia Island Plantation. The 
other 4 acres are to be purchased by Nassau County. So this is 
a no-cost expansion to the National Park Service.
    American Beach does represent a significant piece of our 
history. It is an African-American beach from what is widely 
called the ``Jim Crow'' era of segregation. It was established 
for use by African-Americans by an insurance executive, the CEO 
of the Afro-American Life Insurance Company, Abraham Lincoln 
Lewis.
    This expansion would preserve the only remaining piece of 
that beach that has got the historic integrity, dating back to 
the days of its use as American Beach.
    As I indicated, there is no cost in the acquisition of the 
lands, and there would be a cooperative management scheme, such 
that there is virtually no additional cost to the management of 
the park. And there is an awful lot of local support for this 
park expansion as well.
    Senator Thomas. Let me interrupt. Did you say it was 46,000 
acres?
    Mr. Hoffman. The total park.
    Senator Thomas. In the city of Jacksonville.
    Mr. Hoffman. Well, adjacent to it, to the north and east of 
it. There are a lot of wetlands and then there are a number of 
historical sites that are part of the park as well.
    Senator Thomas. That is a lot. Thank you.
    Mr. Hoffman. S. 1789, the Martin Luther King, Junior, 
National Historic Site exchange. The Department supports this 
bill.
    It authorizes an exchange between the city of Atlanta and 
the National Park Service. Normally we require cities or 
counties to donate lands to national parks. In this particular 
instance, the city of Atlanta has already donated a substantial 
chunk of real estate, upon which the visitor center is 
constructed. This particular exchange would have the National 
Park Service getting 1.7 acres which will provide emergency 
access to the visitor center. Right now there is only foot 
access to the visitor center, and in exchange for that, the 
city of Atlanta would get one-third of an undeveloped acre on 
the back side of the park unit, upon which they would build a 
parking facility.
    This exchange would not only enhance the emergency access, 
ingress and egress, to the visitor center for the National Park 
Service, but it will enhance Atlanta's efforts to revitalize 
and redevelop the Edgewood Avenue area of their city. It does 
require an equal value exchange, and we may adjust the acreage 
in order to make that an equal value exchange.
    The only cost to the Park Service as a result of this 
exchange would be $160,000 to pave the road into the visitor 
center to provide that access.
    S. 2167, the Lewis and Clark National Historical Park, a 
name change and expansion bill. The Department supports this 
bill with technical amendments.
    This bill will rename Fort Clatsop National Memorial to the 
Lewis and Clark National Historical Park. We believe that this 
will more accurately reflect the nature of the park and make it 
more readily identifiable to the American public, especially as 
we are about halfway through the bicentennial celebration of 
this historic mission of exploration.
    I believe that the significance of the Lewis and Clark 
bicentennial cannot be understated. The discovery expedition 
from 1803 to 1806 is widely hailed as one of the most 
significant exploratory events of this country and perhaps even 
the world. The significance of the Fort Clatsop area is that is 
where the winter encampment of the expedition was during the 
winter of 1805 and 1806, before they returned to St. Louis the 
following summer.
    The Department supported and Congress passed a boundary 
expansion in 2002 and in conjunction with that, there was a 
study authorized to look into other potentials for expansion of 
the park down the road. The 2002 expansion took the Fort 
Clatsop National Memorial from 125 acres to 1,500 acres. It 
enabled the creation of a trail to the sea, to the area where 
the Lewis and Clark expedition boiled sea water to buildup 
their severely depleted salt supplies.
    The purchase of that additional acreage, to complete that 
expansion, is the No. 2 priority for land acquisitions within 
the Park Service. It is estimated to cost $6.5 million.
    This particular bill will add three new sites to the park 
unit, and these sites are currently State parks. We believe 
that this bill represents a four C's effort. Secretary Norton 
has what she calls her four C's which is conservation through 
cooperation, consultation and communication. Our leader in this 
effort out there at the park has been the superintendent of 
Fort Clatsop National Memorial, Chip Jenkins, who is here with 
us today, and he has really done an outstanding job of working 
with both the States of Washington and Oregon and the local 
communities on this effort.
    There will be cooperative management of the new units. 
There will be close coordination with both States and in the 
management of their other State parks and in the promotion of 
the newly expanded park. All the units, together with the State 
units, will be collectively identified as the Lewis and Clark 
National and State Historical Park, which is similar to what we 
do in California with the Redwood National Park adjacent to the 
California Redwood Park.
    The three units to be added include Cape Disappointment. 
This is the western-most point of the Lewis and Clark 
Expedition. The acreage to be added is currently Bureau of Land 
Management land which has been withdrawn from public use for 
the Army Corps of Engineers and the U.S. Coast Guard. We would 
like to work closely with the committee on the verbiage of an 
amendment to the bill to address the transfer of the 
administration of all the Cape Disappointment lands to the 
National Park Service. The bulk of the Cape Disappointment area 
would be managed by the State of Washington as a State park, 
but 20 acres within that would be the site of a memorial to 
Thomas Jefferson and managed by the National Park Service.
    The other unit to be added would be Clark's Dismal Nitch. 
This is where the expedition nearly floundered. They got pinned 
against the cliffs there during a severe Pacific storm, and it 
was a very significant part of their arrival in that area. This 
is 30 acres of land to be donated to the National Park Service 
by the State of Washington, and it includes 160 acres which 
would be purchased for somewhere between $1.5 million and $2.3 
million.
    The third unit to be added would be Station Camp. This is 
where the expedition finally reached the mouth of the Columbia 
River, and the most extensive surveying and location data 
documentation done by Meriwether Lewis was done at this site.
    This is also unique in that it is where the first known 
democratic action took place west of the Mississippi where the 
expedition voted on the location where they were going to over-
winter that year.
    This involves 15 acres to be donated by the State of 
Washington, as well as about $6.5 million in road and 
infrastructure improvements that will be donated to the 
National Park Service by the State of Washington. It would also 
involve the acquisition of a conservation easement on 455 acres 
in the area.
    We are very excited about this particular bill. We think it 
represents a unique opportunity to make a dramatic statement 
about the bicentennial of the Lewis and Clark expedition, as 
well as highlight how we can expand and manage parks 
cooperatively with States and other entities in order not to 
make them a burden upon the Federal budget.
    The fourth bill, S. 2173, the Sand Creek Massacre National 
Historic Site land transfer bill. The Department supports this 
bill with amendments.
    This site, as Senator Campbell so well articulated, was 
authorized in 2000 for up to 13,000 acres with the Secretary of 
the Interior having the discretion to establish it as a unit of 
the National Park Service once adequate acreage was in the 
hands of the Park Service so as to make it a viable unit and to 
adequately be able to interpret and protect the site of the 
Sand Creek Massacre.
    This particular bill authorizes the Secretary of the 
Interior to receive 1,465 acres from the Cheyenne and Arapaho 
tribes. This would be a donation. It would be held in trust, 
but would be administered by the National Park Service for 
historic preservation purposes. That is the real need for this 
particular authorization. It is not the normal kind of trust 
relationship the Department has with tribal lands.
    The National Park Service has surveyed the area to 
determine the actual site of the Sand Creek Massacre and other 
significant resources in the area, and this 1,465 acres, 
together with the approximately 900 acres that the Park Service 
owns, will constitute a significant part of the actual site 
where the massacre took place. So we believe with the passage 
of this bill and the transfer of the land, that it is time to 
designate the Sand Creek Massacre National Historic Site as a 
National Park Service unit.
    We would like to work with the committee on some amendments 
to this bill. We would prefer that the bill not actually make 
this 1,465 acres of land part of the Cheyenne and Arapaho 
reservation. That poses some administrative challenges, given 
that their reservation lands are actually in Oklahoma.
    We would like to clarify the language that addresses the 
Secretary's role as trustee.
    And we would like to work with the committee on addressing 
the future management of the buildings on the 1,465-acre 
donation. There are some trust implications that come to bear 
on how buildings are managed, and we would prefer to see them 
managed according to national park standards, but we are more 
than willing to work with your staff and the committee to 
develop the language for these amendments.
    That concludes my comments, and I am prepared to take any 
questions the committee may have.
    [The prepared statements of Mr. Hoffman regarding S. 1672, 
S. 1789, H.R. 1616, S. 2167, and S. 2173 follow:]

 Prepared Statement of Paul Hoffman, Deputy Assistant Secretary, Fish 
           and Wildlife and Parks, Department of the Interior
                               on s. 1672

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Department's views on S. 1672, a bill to 
expand the Timucuan Ecological and Historic Preserve in Florida.
    The Department supports S. 1672. The bill would authorize the 
National Park Service (NPS) to expand the preserve boundary to include 
American Beach, a unique historic recreational area established in the 
1920s for African-Americans during the segregated ``Jim Crow'' era. The 
12.5 acre boundary expansion, including the existing structures and 
beachfront, will not result in additional operational costs to the NPS 
because the area would be managed with existing staff.
    S. 1672 authorizes a boundary expansion for the Timucuan Preserve 
to encompass 12.5 acres of the remaining American Beach area. The 12.5-
acre area is significant because it includes important remnants of the 
beach, natural dune, and remaining historic structures associated with 
the prominent era of American Beach resort use. Consistent with many 
other areas within the boundary of the Timucuan Preserve, the NPS would 
cooperate with other agencies and private landowners in managing land 
within its boundary.
    Inclusion of American Beach will facilitate preservation and 
understanding of this important site. Within the 12.5-acre expansion 
area, the NPS anticipates receiving 8.5 acres by donation from the 
Amelia Island Plantation. The remaining four acres are in private 
ownership and are currently for sale. Although within the boundary 
expansion area, NPS has no plans to purchase these four acres. Like 
other areas of the Timucuan Preserve that are outside of NPS ownership, 
the NPS would work cooperatively with appropriate agencies and 
interested private landowners to help to manage and interpret American 
Beach resources. Nassau County officials and private citizens support 
expansion of the park boundary and donation of American Beach land to 
the NPS.
    Abraham Lincoln Lewis, co-founder and president of the Afro-
American Life Insurance Company, founded American Beach in 1920 as a 
place where executives and employees of the company could enjoy ocean 
beach recreational activities in the ``Jim Crow'' era when such 
opportunities were severely limited. However, word soon spread and 
African-Americans from Atlanta, Tuskegee, and other parts of the south 
came to the beach town to buy property and spend their summers free 
from reminders of segregation and discrimination. The resort also had 
low rates that allowed the less affluent accessibility for day 
gatherings. The African-American working class came to the resort from 
farming towns across South Georgia, North Florida, and Alabama.
    In the 1940s and 1950s American Beach became the place where 
African-Americans went for recreation and relaxation without seeing a 
``Whites Only'' sign, the rule for beaches in the southeast at that 
time. Many writers, artists, and entertainment and sports celebrities 
enjoyed the town's special vacationland atmosphere. At American Beach, 
entertainers like Ray Charles and Duke Ellington played in the local 
clubs.
    The Amelia Island Plantation, a private corporation on Amelia 
Island, intends to donate 8.5 acres of the 12.5-acre expansion area to 
the NPS. The proposed donation would ensure that the legacy of 
conservation on behalf of Abraham Lincoln Lewis and the Afro-American 
Life Insurance Company is preserved. The 8.5-acre donation consists of 
a natural sand dune that is currently open to visitor use through a 
conservation easement, and associated scrub and maritime hammock 
habitat. The dune and surrounding habitat were protected from 
development in the original designs for American Beach. The Amelia 
Island Plantation Corporation later preserved the site intact when it 
purchased the property. Natural habitat values of the site include high 
species diversity with relatively little disturbance and few exotic 
species, and habitat for the threatened loggerhead turtle.
    The proposed expansion area also includes important remaining 
structures from the ``Jim Crow'' era, including the cotillion area 
where people gathered to be entertained by celebrities. One home 
(Ervin's Rest) was listed on the National Register of Historic Places 
in 1998. In 2002 the American Beach Historic District was listed on the 
National Register in recognition of its African-American cultural 
heritage. The NPS, other agencies, and private landowners will 
cooperatively manage structures that remain within the boundary 
expansion area.
    Created by segregation and abandoned after integration, American 
Beach has struggled against a powerful tide. Development of large 
condominium and resort complexes on Amelia Island has encroached on the 
remnants of this African-American resort community. As a result, 
American Beach has decreased in acreage from its most prosperous size 
of 200+ acres to only 60 acres that remain today. Inclusion of the 
proposed 12.5 acres within the Timucuan Preserve will help preserve 
critical components of American Beach and its unique association with 
African-American heritage.
    The General Management Plan for the Timucuan Preserve outlines a 
partnership approach to management. Should the preserve boundary be 
expanded, management of American Beach would follow this partnership 
model. In particular, the NPS would work closely with County, State, 
federal, and private interests on lands owned by the NPS and in other 
sites outside of NPS ownership but within the preserve boundary. 
Through these partnerships, the NPS would work cooperatively to pursue 
restoration and protection of remaining historic and natural resources 
at American Beach.
    The proposed boundary expansion enjoys support from private 
landowners and local officials. Throughout Nassau and Duval Counties, 
Florida individuals and groups have demonstrated support for the 
protection and conservation of American Beach. American Beach has also 
been the subject of documentaries on the History Channel. As a result, 
high public interest in saving this resource has been generated.
    Mr. Chairman, this completes my testimony. I will be happy to 
answer any questions that you or any members of the Subcommittee may 
have now.
                                 ______
                                 
                        on s. 1789 and h.r. 1616

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Department's views on S. 1789 and H.R. 1616. 
These bills would authorize the exchange of lands within the Martin 
Luther King, Junior, National Historic Site for lands owned by the City 
of Atlanta, Georgia.
    The Department supports both of these bills, which are identical. 
At a hearing on June 17, 2003, the Department testified in support of 
H.R. 1616, which passed the House without amendment on October 28, 
2003.
    Both bills would allow the National Park Service (NPS) to exchange 
land currently owned on Edgewood Avenue for land of equal or greater 
value from the City of Atlanta (City). The exchange would provide the 
Martin Luther King, Junior, National Historic Site (park) with 
emergency access to the park visitor center, and would help in the 
continuing revitalization of Edgewood Avenue. Although appraisals have 
not been completed, there would be no acquisition costs associated with 
this equal value exchange. Development of the newly acquired land, in 
order to provide paved access for emergency vehicles, is estimated to 
cost $160,000. There would be no increase in operational costs or the 
need to fund additional facilities.
    Both bills would amend Section 2(b) of P.L. 96-428, the act that 
established Martin Luther King, Jr. National Historic Site, to allow 
the Secretary of the Interior to acquire land within the boundary of 
the park that is owned by the State of Georgia, or any political 
subdivision of the State, by exchange. Currently, P.L. 96-428 only 
allows the Secretary to acquire such lands by donation.
    The park and nearby Preservation District, which includes Sweet 
Auburn, the economic and cultural center of Atlanta's African-American 
community during most of the 20th century, were established in 1980 to 
preserve, protect and interpret the places where Dr. King was born, 
worked, worshipped, and is buried. Located near downtown Atlanta, the 
park consists of 34.47 acres, of which 13.04 acres is currently in 
federal ownership.
    Most of the park is self-guided, including the visitor center, 
Historic Ebenezer Baptist Church, Dr. King's gravesite, Freedom Hall 
and Historic Fire Station No. 6. Guided tours are provided for Dr. 
King's Birth Home. In addition, the park preserves and maintains 22 
historic properties. Most of these properties are located on the same 
block as the Birth Home and are restored to the 1930s period when Dr. 
King lived on Auburn Avenue. These historic properties are leased, as 
residential units, to the general public.
    In 1992, when the NPS began planning for a visitor center, the 
preferred location was determined to be the site of the City-owned 
Martin Luther King, Jr. Community Center. In accordance with P.L. 96-
428, land could only be acquired from the City of Atlanta by donation. 
The City, realizing the importance of having an NPS visitor center 
within the park, agreed to donate the community center to the NPS.
    Due in large part to the City's generosity, the visitor center has 
been completed. However, emergency vehicles are unable to access the 
visitor center from nearby streets and additional land is needed to 
provide this emergency vehicle access. The City owns 1.71 acres that 
are adjacent to the visitor center, have easy access from Jackson 
Street, and could be developed to provide the needed emergency access 
for the visitor center. The City is interested in conveying all, or a 
portion, of this property to the NPS through an exchange.
    When the park was established, the boundary was created to ensure 
the preservation of Dr. King's neighborhood. Included within the 
boundary is Edgewood Avenue. In order to assure preservation of the 
area NPS has gradually acquired several properties along Edgewood 
Avenue, which was a deteriorating commercial area.
    At the time the park was established, there were no local efforts 
to preserve properties along Edgewood Avenue. However, during the past 
10 years several individuals and organizations, with the support of the 
City, have initiated restoration of the preservation district, 
including Edgewood Avenue. NPS ownership on Edgewood Avenue is no 
longer needed solely to ensure preservation and NPS has identified land 
along Edgewood Avenue that would be suitable for an exchange with the 
City, in order to acquire the parcel adjacent to the visitor center.
    That completes my testimony. I would be happy to answer any 
questions that you or any members of the subcommittee may have.
                                 ______
                                 
                               on s. 2167

    Mr. Chairman, we appreciate the opportunity to appear before you 
today on S. 2167, to establish the Lewis and Clark National Historical 
Park in the States of Washington and Oregon.
    The Department supports enactment of S. 2167. This bill, which 
would expand Fort Clatsop National Memorial to include sites in the 
state of Washington as well as Oregon and rename the unit the Lewis and 
Clark National Historical Park, is an Administration initiative, 
submitted to Congress in February of this year. S. 2167 would 
facilitate a promising partnership between the National Park Service 
and the two states for coordinating management and interpretation of 
all the federal and state sites related to the Lewis and Clark 
Expedition in the lower Columbia River region. We urge the committee to 
move this legislation as quickly as possible in order to increase the 
likelihood of its enactment before the start of the Lewis and Clark 
Expedition 200th Anniversary events in Washington and Oregon, which are 
scheduled to begin in the summer of 2005.
    S. 2167 would implement the recommendations that resulted from the 
Fort Clatsop National Memorial boundary expansion study the National 
Park Service conducted of three sites along the lower Columbia River in 
the State of Washington that are important to the story of the Lewis 
and Clark Expedition. The study found that the three sites are 
nationally significant, and that they are suitable and feasible for 
addition to Fort Clatsop National Memorial. It recommended that two of 
the sites and part of the third site be added to Fort Clatsop. It also 
called for changing the name of Fort Clatsop to the ``Lewis and Clark 
National Historical Park,'' to reflect not only the addition of the 
Washington sites, but also the fact that the Fort Clatsop National 
Memorial now includes a much larger area in Oregon than just the site 
where Fort Clatsop stood. The study further recommended that the 
National Park Service enter into partnerships with the states of Oregon 
and Washington to coordinate management and interpretation at all of 
the federal and state sites in the area related to the Lewis and Clark 
Expedition, both for management efficiencies and to provide a more 
cohesive presentation to the public of the Expedition's experiences 
upon their arrival and encampment on the Pacific coast.
    For the three Washington sites, the cost to the federal government 
for land acquisition is estimated to range from $1.5 million to $2.3 
million, and for development, between $2.1 million and $4 million. 
Annual operating costs are estimated at about $127,000.
    Fort Clatsop National Memorial, near Astoria, Oregon, was 
established to commemorate the 1805-1806 winter encampment of the Lewis 
and Clark Expedition. The original site consists of a replica of the 
fort that was constructed through the efforts of the Junior Chamber of 
Commerce, Oregon and Clatsop County Historical Societies, Crown 
Zellerbach, other civic organizations and many individual volunteers. 
The donation of the reconstructed fort and acres of surrounding land in 
1958 allowed the establishment of the memorial. Public Law 107-221, the 
Fort Clatsop National Memorial Expansion Act of 2002, expanded the 
memorial from 125 acres to up to 1,500 acres of land adjacent to the 
site. These lands are a priority for acquisition in the 
Administration's budget request for Fiscal Year 2005. The expansion 
also provides for a five-mile Fort To Sea Trail, which will enable park 
visitors to walk from Fort Clatsop to Sunset Beach. Like the original 
park, the trail is being designed and will be constructed largely 
through donated resources and volunteer labor.
    In addition to the expansion of Fort Clatsop, Public Law 107-221 
also authorized the boundary study of three sites in Washington that 
became the basis for S. 2167. These sites are Clark's Dismal Nitch, 
Station Camp, and Cape Disappointment. They would form the Washington 
state part of the new Lewis and Clark National Historical Park.
    Clark's Dismal Nitch is the place where the Expedition nearly 
foundered as they were pinned against the cliffs by a fierce Pacific 
storm, just a few short miles from the mouth of the Columbia River. 
Approximately 30 acres would be donated by the State of Washington, and 
up to 160 acres would be acquired in fee or easement from a willing 
seller.
    Station Camp is the site where the Lewis and Clark Expedition 
finally reached the mouth of the Columbia River. It was at that 
location that Captain William Clark completed the most detailed survey 
of the entire journey, and the members of the Expedition launched 
reconnaissance trips north along what is now known as the Long Beach 
Peninsula in Washington. It is also the site where the members of the 
Expedition, including Clark's slave York and the young Shoshone Indian 
woman Sacagawea, voted to decide where to spend the winter. As a result 
of the vote, the Expedition crossed over the Columbia River and built 
what we now know as Fort Clatsop. Washington State is currently 
investing approximately $6.5 million in realigning a highway and 
creating a riverside park at Station Camp that will be dedicated to 
commemorating this part of the Lewis and Clark story. If S. 2167 is 
enacted, the state would donate the key portion of the site, about 15 
acres, along with the new improvements to the National Park Service. 
About 455 acres would be acquired in easement from a willing seller to 
protect the scenic backdrop.
    Cape Disappointment was the furthest point west the Expedition 
explored. It was there that the members of the Expedition first saw a 
full view of the Pacific Ocean. Land at Cape Disappointment is owned by 
the Federal government and managed as a state park. Under S. 2167, the 
National Park Service could be given administrative jurisdiction over 
1,140 acres of Federal land at Cape Disappointment and, in that case, 
would enter into a cooperative management agreement with the state of 
Washington to allow that land to continue to be operated as a state 
park. Twenty acres within the state park would be managed by the 
National Park Service as a memorial to Thomas Jefferson to commemorate 
his vision of a country ``from sea to shinning sea'' and how the Lewis 
and Clark Expedition helped to achieve this vision.
    The language in Section 4(d)(5) of the bill that pertains to the 
disposition of Cape Disappointment, as described above, needs amending 
to facilitate the transfer in a timely manner and to ensure that the 
intent of that provision is clear. We would be happy to work with 
committee to develop an amendment for that purpose.
    The boundary study was undertaken in partnership with the 
Washington State Historical Society, the Washington State Park and 
Recreation Department, and the Oregon State Park and Recreation 
Department. Through this collaboration, the study team determined that 
nationally significant sites associated with the Lewis and Clark story 
are also under the management of the both Washington and Oregon Parks 
and Recreation Departments. These sites are found within Cape 
Disappointment State Park and Fort Columbia in Washington, and Fort 
Stevens State Park and Ecola State Parks in Oregon.
    As a result, the study called for the National Park Service to 
enter into cooperative management agreements with both states to 
operate the National Park Service units in close collaboration with 
these state park units, and S. 2167 specifically provides the authority 
for that purpose. Collectively, the parks would be identified as the 
``Lewis and Clark National and State Historical Parks.'' This would be 
a similar arrangement to the one at Redwood National Park, where the 
federal and state park agencies share resources under a cooperative 
management agreement and identify the parks for public information 
purposes as ``Redwood National and State Parks.''
    Mr. Chairman, in summary, S. 2167 offers an exciting and timely 
opportunity to expand the American public's appreciation of the great 
achievements of the Lewis and Clark Expedition, and to do so through a 
very promising partnership with two states that are extremely 
supportive of this effort. That concludes my statement. I will be happy 
to answer any questions you or other members of the subcommittee may 
have.
                                 ______
                                 
                               on s. 2173

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2173, a bill to further the purpose of the Sand 
Creek Massacre National Historic Site Establishment Act of 2000. We 
would like to thank Senator Campbell for his continued interest and 
support of this site.
    The Department supports S. 2173 if amended as described at the end 
of this testimony. S. 2173 would convey title to a section of land 
formerly known as the ``Dawson Ranch'' and existing structures on that 
land to the United States to be held in trust by the Secretary of the 
Interior and managed by the National Park Service strictly for the 
purposes for which Sand Creek Massacre National Historic Site was 
authorized by P.L. 106-465. The purposes of that Act are to recognize 
the national significance of the massacre in American history, its 
ongoing significance to the Cheyenne and Arapaho people and descendants 
of the massacre victims, and the opportunity to involve the tribes and 
the State of Colorado in the development of plans and educational 
programs for the site. Under the bill, the property could only be used 
for historic, religious and cultural purposes that are compatible with 
the use of the land as a national historic site. S. 2173 also would 
require the completion of a survey of the ``Dawson Ranch'' to 
accurately establish the boundary of the proposed tribal trust lands. 
Finally, the bill would declare that the trust property become a part 
of the Indian reservation of the Cheyenne and Arapaho Tribes of 
Oklahoma.
    Sand Creek Massacre National Historic Site is located in Kiowa 
County on the eastern plains of Colorado. Within the boundary of the 
site there are approximately 12,500 acres of private and State land 
that has changed little since 1868. On November 29, 1864, a group of 
some 700 volunteer Colorado militiamen under the command of Colonel 
John Chivington, a Civil War hero, entered the Sand Creek camp occupied 
by about 500 people of the Cheyenne and Arapaho tribes. At the same 
time, Cheyenne Chief Black Kettle was conducting peace negotiations 
with the U.S. government on behalf of his people. Although the Cheyenne 
and Arapaho people believed they were under the protection of the U.S. 
Army, Chivington's troops attacked and killed about 150 people, mainly 
women, children, and the elderly.
    The massacre resulted in almost instant controversy, which 
ultimately led to three federal investigations, all of which condemned 
Chivington's actions. In 1865, the Treaty of Little Arkansas provided 
victims of Sand Creek minor compensation for their suffering and loss 
of property.
    As time passed, evidence of the massacre slowly disappeared. 
Although the event continued to be remembered, the only commemoration 
of the massacre was a simple granite marker placed near the site by the 
local community in 1950. Following the provisions of P.L. 105-243, the 
National Park Service completed a study of the area that determined the 
location and extent of the Sand Creek Massacre, and the feasibility of 
designating the site as a unit of the National Park System. Those 
findings were presented to Congress, and the national historic site was 
authorized by P.L. 106-465.
    The law authorizing Sand Creek Massacre National Historic Site 
required that ``sufficient'' land be acquired from willing sellers ``to 
provide for the preservation, memorialization, commemoration, and 
interpretation of the Sand Creek Massacre'' before the area would be 
established as a national historic site. Since February 2001, the 
Conservation Fund has purchased and conveyed to the NPS a total of 920 
acres from three willing sellers. The total cost of these purchases is 
$136,100.
    With the transfer of the Dawson Ranch, authorized in S. 2173, the 
NPS believes it would have sufficient land for establishment of the 
national historic site and would forward a recommendation to the 
Secretary to formally establish the park. The Dawson Ranch, which 
includes approximately 1,465 acres and four existing buildings, lies 
within the core area of the authorized site. It was purchased by 
Southwest Entertainment, Inc., in December 2002 for approximately $1.5 
million. Southwest Entertainment, Inc., has conveyed the property and 
the buildings in fee to the Cheyenne and Arapaho Tribes of Oklahoma. 
The tribes have expressed an interest in having the NPS manage the site 
and the authorizing legislation provides for substantial tribal input 
into the management planning process. The Dawson Ranch, combined with 
the existing 920 acres, would be of sufficient size and interest to 
provide opportunities for visitors and protect the area of the site 
containing the most sensitive and critical historic resources.
    Until the site is established, the NPS does not have authority to 
enforce federal laws and regulations on any of the lands within the 
site boundary, including the 920 acres currently in NPS ownership. The 
NPS has surveyed the boundary and has posted signs, however no public 
access is permitted. The NPS has entered into a cooperative agreement 
with Kiowa County for wildland fire management and other assistance. We 
also have agreements with all four associated tribes to continue 
consultation in the development and management of the site and to 
provide for reasonable access for commemorative purposes and 
traditional cultural and historical observances.
    Research is being conducted so that management plans can be 
developed as quickly as possible should a national historic site be 
formally established. Sand Creek Massacre NHS has submitted a request 
to begin a general management plan (GMP). Until funding is available 
for the GMP, the Intermountain Region and park staff will develop an 
interim operation plan by the end of this year.
    The site currently receives $287,000 for operations in FY04. If S. 
2173 is enacted, NPS would request an additional amount of $547,000 to 
operate the site ($104,000 for initial law enforcement and an 
additional $442,000 for operations and FTE). Additional costs may be 
required for the structures, including four buildings, that would be 
placed into trust status under S. 2173. One of the buildings, a ranch 
house, is not in good condition and would cost $426,000 for 
rehabilitation. Discussions between NPS, the Tribal owners, and the 
Northern Cheyenne and the Northern Arapaho Tribes indicate a strong 
interest in removing this structure, which would cost approximately 
$106,000. Two buildings are sheds that would be used for storage, and 
one building is a large garage and ranch office that NPS and the Tribe 
could use as a maintenance building, office or temporary visitor 
contact station. NPS would need to make minimal repairs, if any, to 
these buildings at this time.
    One of the hallmarks of the history of the creation of Sand Creek 
Massacre National Historic Site has been the cooperation and dedication 
of all interested parties. The tribes, descendants organizations, the 
local communities in Kiowa and other surrounding counties, the State of 
Colorado and other Federal agencies have developed excellent 
relationships and established lines of communication that have allowed 
us to be here in less than 10 years, on the brink of establishing a 
site that will tell an important story in this country's history.
    We have three important amendments to offer that would clarify the 
purposes of the bill and the roles and responsibilities of the 
Secretary. The first two amendments are reflected in the amendment to 
Section 6, attached at the end of this testimony. We would like to work 
with the Committee and the Tribe to develop the third amendment before 
the bill moves forward.
    First, we suggest deleting the provision in Section 6(a), which 
declares the property to be a part of the Indian reservation of the 
Tribe. Declaration of a reservation is an action that is independent of 
transfer into trust status and seems unnecessary for the administration 
of the trust land as part of a national historic site.
    Second, we are concerned that S. 2173 does not specify what duties 
are required of the Secretary. We believe that Congress, when it 
mandates land be taken into trust, should specifically define the 
expectations of the beneficiary and the obligations of the Federal 
government. Both the Executive and the Judicial Branches, as well as 
the beneficiary, are faced with the question of Congress' intent when 
it puts land into trust status.
    While S. 2173, as introduced, contains a provision indicating that 
the trust property shall be administered ``in accordance with the law 
generally applicable to property held in trust by the United States for 
the benefit of Indian tribes'', this provision is so potentially broad 
that it makes the duties of the Secretary with regard to the land and 
the structures that are to be held in trust even less clear. We suggest 
an amendment in Section 6 of the bill that would eliminate this 
confusing provision. The amendment also would consolidate existing 
provisions that require that the Secretary administer the property in 
accordance with the law establishing the national historic site and 
that the property be used only for historic, religious, or cultural 
uses and only if those uses are compatible with the national historic 
site. The amended provision would clarify the scope of the trust 
responsibility.
    Even with this amendment, guidance in the bill with regard to the 
duties of the Secretary is limited, particularly with respect to the 
structures taken into trust status. As you know, the President has made 
a commitment to addressing the deferred maintenance backlog in our 
national parks. Toward this effort, the NPS has, for the first time 
ever, developed a comprehensive system to grade the condition of 
facilities. With this system, the NPS can set targets each year to 
improve facility grades and achieve an overall acceptable condition for 
facilities. To ensure that these management decisions can be made in a 
timely manner, we would like to work with the Tribe and the Committee 
on a possible amendment to the bill which would convey the existing 
buildings in fee title to the Secretary, while placing the real 
property into trust status. We also would like to include a provision 
that would require the Secretary to consult with the Tribe concerning 
the uses of the buildings. Given the strong interest expressed by both 
the Tribe and the NPS to remove the ranch house, the terms of the 
conveyance would require further discussion. We would like to work with 
the Committee and the Tribe on such an amendment that would be 
acceptable to all parties.
    We appreciate the committee's interest in this legislation. That 
concludes my remarks and I would be happy to respond to any questions 
that you may have.
                                 ______
                                 
                          PROPOSED AMENDMENTS

    On page 4, strike lines 11 through 24 and insert,
    SEC. 6. ADMINISTRATION AND USE OF TRUST PROPERTY.--
    ``(a) IN GENERAL.--The trust property shall be administered in 
perpetuity by the Secretary only for historic, religious, or cultural 
uses and only those uses that are compatible with the use of land in 
accordance with the Sand Creek Massacre National Historic Site 
Establishment Act of 2000 (16 U.S.C. 461 note; Public Law 106-465).''.

    Senator Thomas. Thank you very much. I just have one.
    That Lewis and Clark thing is kind of complicated. What is 
the bottom line in terms of the cost to the Federal Government 
in this bill?
    Mr. Hoffman. The exact cost is not determined yet because 
appraisals are not in yet, but we are looking at the range of 
about $6.3 million for the 160-acre acquisition of the Dismal 
Nitch and the 455-acre conservation easement at Station Camp.
    Senator Thomas. So does this bill authorize that 
expenditure?
    Mr. Hoffman. That is my understanding.
    Senator Thomas. Senator.
    Senator Akaka. Mr. Hoffman, on S. 2173, I understand that 
the administration's position is that when Congress mandates 
that land be taken into trust for the benefit of the Indian 
tribe, it should specifically define the obligations of the 
Federal Government. That is my understanding.
    Since the bill requires the trust property to be 
administered in accordance with the Sand Creek Massacre 
National Historic Site Establishment Act, what is the 
administration's recommendation for what the scope of trust 
responsibility should be?
    Mr. Hoffman. It is our intent that the bill would authorize 
the Secretary to manage these lands in trust for the tribes, 
but in order to carry out the purposes of the original act, 
which is to interpret and protect the historic resources at the 
Sand Creek Massacre site. Typically trust management for tribal 
lands and resources requires the Secretary to manage those to 
maximize the benefit to the tribes, and in this particular 
case, it seems to us that everybody is in agreement that the 
highest and best use of these lands would be to manage them to 
interpret, tell the story of the Sand Creek Massacre, and 
protect those lands for future generations.
    Senator Akaka. In my opinion it will be very difficult for 
this committee to begin addressing Indian trust issues on 
public land or national park bills. It appears from your 
testimony that the formal establishment of the Sand Creek 
Massacre National Historic Site is contingent on acquiring the 
Dawson Ranch property. If the committee decides not to define 
the scope of trust responsibility in this bill, does that 
change the administration's support of the bill?
    Mr. Hoffman. I am not sure I can provide you with a 
definitive answer to that, Senator. We certainly believe that 
the caveats we expressed relative to the trust responsibilities 
are essential to the successful management of this as a 
National Park Service site.
    Senator Akaka. I want to thank you for your statements in 
support of the other bills.
    Mr. Chairman, the other bills seem to be relatively 
noncontroversial, and I do not have any further questions.
    Senator Thomas. Senator Campbell.
    Senator Campbell. I have a couple on this same bill. 
Senator Akaka, in fact, asked one of them already and got an 
answer to it.
    Looking at your testimony, though, Mr. Hoffman, on page 4 
in the last paragraph, you mention that the Park Service has 
some potential costs for operation for a number of things. One 
of them included the ranch house, which is not in good 
condition. It would cost $426,000 for rehabilitation. Then it 
goes on to say between discussions with the NPS, the tribal 
owners, and the Northern Cheyenne and the Northern Arapaho 
tribes and so on, they indicate a strong interest in removing 
the house, and that would still cost $106,000.
    I can certainly understand $426,000 for renovating a home, 
but why would it cost that much to get rid of an old house? It 
just recently came to my mind. On our ranch, we had an old 
house we wanted to get rid of and we called the local fire 
department and they did it for nothing. They used it for a 
training thing and they set the thing on fire, and they trained 
their firemen. And what do you know. It was all gone. We just 
buried the remains in a hole and that was that. Can you not do 
that or something along that line?
    Mr. Hoffman. Well, I would think that we would want to 
explore whatever means are possible. This is just a rough 
estimate in order to have some discussions about the priorities 
that we should take. Should we restore it, should we tear it 
down? I do not think we are necessarily held to $106,000, and 
we can certainly seek other means. I think whatever we do, we 
want to make sure we do it in a way that is consistent with the 
overall protection of the integrity of the site and to ensure 
that we do not burn somebody else's building down in the 
process.
    Senator Campbell. Yes. Well, you might consider that 
anyway. In fact, I probably know a few Cheyennes who would help 
you burn a few buildings down.
    [Laughter.]
    Senator Campbell. As I understand it, the tribes may use 
the trust land for cultural ceremonies. That land really takes 
on religious significance to Cheyenne and Arapaho people, as 
you know, because so many of their ancestors died there. How do 
you foresee the Park Service working to accommodate cultural 
uses? Through an MOU, an advisory committee, or something along 
that line?
    Mr. Hoffman. We have a Native American liaison with the 
National Park Service, and we take very seriously our 
responsibilities to work closely with tribes to enable them to 
conduct their religious ceremonies and their cultural 
traditions on national parks. So I am not sure that it requires 
an MOU or something along those lines. We do that as a matter 
of course at a great number of national parks.
    Senator Campbell. I used to know the liaison, Barbara 
Sutteer. She is gone now, retired from the Park Service. Who is 
the liaison now?
    Mr. Hoffman. Pat Parker.
    Senator Campbell. Thank you.
    I think I have no further questions. Thank you, Mr. 
Chairman.
    Senator Thomas. Mr. Secretary, thank you.
    Mr. Hoffman. Thank you, sir. It is always good to be here.
    Senator Thomas. We are very glad to see Pete Lucero over 
there with you. He spent quite a bit of time here with the 
committee. We are glad to see you back, sir.
    Mr. Hoffman. You trained him well, sir.
    Senator Thomas. All right, our panel two. Mr. Steve Brady, 
co-chairman, Sand Creek Massacre Historic Site Project, Lame 
Deer, Montana; Mr. Rex Ziak, Lewis and Clark author and 
historian, Naselle, Washington; Ms. Carol Alexander, executive 
director, Ritz Theatre, Jacksonville, Florida. So if you all 
would come forward.
    If you have written statements, they will be included in 
the record in their entirety, and if you would like to 
summarize your statement, we would be grateful. We will go by 
the way we are listed here.
    Mr. Brady.

 STATEMENT OF STEVE BRADY, SR., CO-CHAIR, SAND CREEK MASSACRE 
              HISTORIC SITE PROJECT, LAME DEER, MT

    Mr. Brady. Good afternoon. My name is Steve Brady, Sr. I am 
the president of the Northern Cheyenne Sand Creek Descendants, 
and I co-chair the Northern Cheyenne Sand Creek Massacre 
Historic Site Project Committee with the tribal president, Geri 
Small and the vice president of the tribe, John Woodenlegs, and 
I am the Headsman of the Northern Cheyenne Crazy Dog Society.
    I would like to have my statement entered into the record, 
as well as the resolution of support for the Northern Cheyenne 
tribe, which DOI 68-2004, as well as letters of support to 
Senator Campbell, Senator Domenici, and Congressman Pombo.
    Senator Thomas. We will do that.
    Mr. Brady. I also would like to have an addendum to my 
written statement and that is ``land will be taken into trust 
as part of the Sand Creek Massacre National Historic Site in 
perpetuity. The second change removes a limitation in the 
existing statute which states that land acquired from the State 
of Colorado can only be conveyed through donation. Striking 
this limitation will give the National Park Service additional 
flexibility in acquiring additional land for the site.'' I 
would like to have that added.
    Senator Thomas. We will include it in your statement. It 
shall be.
    Mr. Brady. I would like to take this opportunity to 
acknowledge some longtime supporters of the Sand Creek Massacre 
project, if they would just stand. Dr. David Halaas and Andy 
Masich have been involved in the Sand Creek Massacre project 
since 1993. They were originally with the Colorado Historical 
Society. They were some of the ones that started this project 
initially. They are now with the Senator John Heinz Museum in 
Pittsburgh. Our new and first superintendent, Alexa Roberts, at 
the Sand Creek Massacre National Historic Site; Dr. Pat Parker, 
the Native American liaison for the National Park Service; Jack 
Trope, Association on American Indian Affairs, executive 
director; all these folks have been longtime supporters of our 
project.
    Senator Thomas. Good. We welcome you all here.
    Mr. Brady. As was summarized by Senator Campbell, the 
village was attacked November 29, 1864 by Colonel John 
Chivington and his Federal troops. Cheyenne Chief Black Kettle 
attempted to raise the U.S. flag with a white truce flag 
underneath it, symbolizing a peaceful relationship with the 
United States. Cheyenne Chief White Antelope told his people to 
gather around him and that no harm would come to them and 
donned a peace and friendship medal given to him personally by 
the President of the United States. With a small contingent of 
men, the village was primarily comprised of women and children. 
Many of the men were out hunting. The Cheyenne were well within 
the confines of their reservation as established by previous 
treaties.
    The village situated at the intersection of Smokey Hill 
Trail and Big Sandy was initially under heavy barrage of 
artillery referred to as mountain howitzers. Then the raping of 
the Cheyenne culture, women began, the disemboweling of 
pregnant women, the butchering of infants, the bashing of their 
heads, babies heads, the mutilation of elders. This was to last 
on into the next day. This was totally unprecedented and 
appalling. The village was completely burnt to the ground 
including piles of burned bodies. Cheyenne Chief White Antelope 
laid amongst his people with his peace and friendship medal in 
plain, obvious view, scalped, his nose and ears and privates 
cutoff. The Europeans had now come to introduce civilization to 
the Cheyenne people.
    Cheyenne Chief Black Kettle survived the Sand Creek 
Massacre only to be assassinated by General Custer's 
sharpshooters at Washita Massacre on November 27, 1868. Despite 
the maltreatment, it is well known that neither of the Cheyenne 
Chiefs, Black Kettle or White Antelope, had ever raised a 
weapon against the United States or any of the European 
settlers and maintained their word of peace to their very end.
    Last year on November 29, at the fifth annual Sand Creek 
Spiritual Healing Run, we honored Captain Silas Soule. It was 
him and Lieutenant Cramer who submitted letters of writing in 
objection to what was committed at Sand Creek, and those 
letters were read by Senator Campbell at a hearing in September 
2000 when the Sand Creek Massacre National Historic Site 
legislation was pending.
    We have also used and often refer to the Bent's Map. George 
Bent's father was a white and his mother was Cheyenne, and he 
lived and grew up amongst the Cheyenne people. He eventually 
was sent back east to be educated and apparently was very well 
educated for his time. That map we often refer to as Cheyenne 
people because he was fluent in the language, because he was 
very knowledgeable of the Cheyenne culture and was very well 
educated. We often refer to that. George Bent was also 
evidenced in the Cheyenne Dog Soldier Ledger book.
    Right now, currently the Northern Arapaho, the Cheyenne and 
Arapaho tribes of Oklahoma, and the Northern Cheyenne are 
working on the repatriation of human remains from the Sand 
Creek Massacre. Currently the Colorado History Museum holds 
human remains from the Sand Creek Massacre, as well as the 
University of Nebraska at Lincoln and Sam Nobles Museum in 
Oklahoma. We have gained legal custody of these human remains 
and we are in the process of getting physical possession in the 
hopes of eventually taking them back to the Sand Creek Massacre 
site for burial.
    When the Sand Creek Massacre Study Act was enacted, there 
was an 18-month timeframe. One of the first, if not the very 
first, significant pieces of evidence that was found that 
specifically located and identified the site was the shrapnel 
from a mountain howitzer. This was the only time that this type 
of weaponry was used in that area by the U.S. military against 
Cheyennes, and it was unquestionably, unequivocally confirming 
the Sand Creek Massacre site. So that pretty much answered the 
question as to the ambiguity, the question of the site.
    That particular area intersects with the Smokey Hill Trail 
and the Big Sandy Creek, and that is the Dawson property. That 
is the property that we are here today discussing and has been 
acquired by a casino business partner, Southwest Entertainment 
of the Cheyenne and Arapaho tribes, and was then conveyed to 
the Cheyenne and Arapaho tribes. We are now supporting as 
tribes this legislation to put this area, the 1,400-plus acres 
referred to as the Dawson property, into Federal trust.
    [The prepared statement of Mr. Brady follows:]

 Prepared Statement of Steve Brady, Sr., President, Northern Cheyenne 
Sand Creek Descendants, Co-Chair, Northern Cheyenne Sand Creek Massacre 
                   Historic Site Project, on S. 2173

    I would like to thank the distinguished members of the United 
States Senate for allowing me to provide testimony this afternoon, I 
would like to especially thank Senators Ben Nighthorse Campbell and 
Wayne Allard for introducing and cosponsoring S.2173. I would also like 
to acknowledge Laird and Colleen Cometsevah for all their hard work for 
the past half a century for keeping the memory of Sand Creek alive.
    Colonel John Chivington and his federal troops attacked at dawn on 
November 29th, 1864, a known peaceful Cheyenne encampment at the 
intersection of Smokey Hill Trail and the Big Bend of Big Sandy in the 
Territory of Colorado in a premeditated attack. Cheyenne Chief Black 
Kettle raised a United States flag with a white truce flag underneath 
symbolizing a peaceful relationship with the United States. Cheyenne 
Chief White Antelope told his people to gather around him and that no 
harm would come to them and donned a peace-and-friendship medal given 
to him personally by the President of the United States. With a small 
contingent of men in camp, the village was primarily comprised of 
women, children and elders. Many of the men were out hunting. The 
Cheyenne were well within the confines of their reservation as 
established by previous treaties.
    The village situated at the intersection of Smokey Hill Trail and 
Big Sandy was initially under heavy barrage of artillery referred to as 
mountain howitzers. Then the raping of women, the disemboweling of 
pregnant women, and the butchering of infants and elders by Colonel 
Chivington's federal troops began and was to last until the next day. 
Totally unprecedented and appalling, the village completely burned to 
the ground including piles of burned bodies. Cheyenne Chief White 
Antelope laid amongst his people with his peace-and-friendship medal in 
plain obvious view, scalped, his nose, ears and privates cut off. 
Europeans had now come to introduce civilization to the Cheyenne 
people. Cheyenne Chief Black Kettle survived the Sand Creek Massacre 
only to be assassinated by General Custer's sharpshooters at the 
Washita Massacre on November 27th of 1868. Despite the maltreatment, it 
is a well-known fact that neither of the Cheyenne Chiefs, Black Kettle 
or White Antelope had ever raised a weapon against the United States or 
any of the European settlers and maintained their word of peace to 
their very end.
    To our knowledge, the most well documented written evidence closest 
in time to the Sand Creek Massacre incident were the letters written by 
Capt. Silas Soule and Lt. Joe Cramer, each of whom commanded about one 
hundred troops and ordered their men not to get involved in the 
carnage. Soule's letter was dated December 14th, 1864 and Cramer's 
letter was dated December 19th, 1864 addressed to Major Wynkoop, 
providing in graphic detail as to what occurred. These same letters 
were presented and read as evidence by Senator Campbell in a previous 
Senate Hearing in September of 2000.
    Capt. Soule testified against Colonel Chivington for the atrocities 
committed by him and his troops. Chivington was never held accountable 
for the acts of genocide. The U.S. Congress promised reparations 
through Cheyenne and Arapaho Treaty of Little Arkansas of 1865, 
specifically Article 6. This promise of reparations presently remains 
unfulfilled. As for Capt. Soule, he was assassinated by Chivington's 
supporters on the streets of Denver shortly before the assassination of 
President Abraham Lincoln in the spring of 1865. Last fall, at the 5th 
annual Sand Creek Spiritual Healing Run (November 29th, 2003) held in 
Colorado, we took the time to honor Capt. Silas Soule for his courage 
and commitment to the Cheyenne people.
    Another documented piece of evidence that the Cheyenne often refer 
to is what is known as ``Bent's Map,'' drawn by George Bent whose 
father was white and mother was Cheyenne. George Bent was in camp at 
the time Chivington's troops attacked the village at Sand Creek. George 
Bent was wounded at Sand Creek and drew the map sometime after the 
incident. Bent grew up amongst his mother's people, very knowledgeable 
of the Cheyenne culture as evidenced in the Cheyenne Dog Soldier Ledger 
book of 1865, fluent in the Cheyenne language he served as an 
interpreter for the Cheyenne people. Moreover, educated in the western 
sense and apparently very well educated for his time.
    In July of 1993, Cheyenne human remains consisting mostly of crania 
from various conflicts during the plains Indian war era, including the 
Sand Creek Massacre, Fort Larned, Fort Zarah and Summit Springs (the 
last major fight of the Cheyenne Dog Soldiers) were repatriated to 
Concho Agency in Concho, Oklahoma from the Smithsonian Institution 
under the National Museum of American Indian Act.
    While the Cheyenne people had maintained within their oral 
histories the horrible details of the Sand Creek Massacre and on 
occasion went to the site for ceremonies, for almost a century and a 
half, the exact location of the Sand Creek Massacre Site seemed to 
remain ambiguous. Then in 1993, Dr. David Halaas and Andrew Masich of 
the Colorado Historical Society decided to confirm the exact location 
of the Sand Creek Massacre Site, and after searching a broad area their 
results remained inconclusive at end of their project in 1997.
    Legislation was introduced in early 1998, by the Honorable Ben 
Nighthorse Campbell, to acquire what had become known as the ``Dawson 
Property'' and was generally thought to be the Sand Creek Massacre 
Site. This legislation became known as the Sand Creek Massacre National 
Historic Site Study Act of 1998, authorizing an 18-month study rather 
than acquiring the ``Dawson Property.''
    In May of 2000, in a field survey the first artifact found was a 
piece of cannon ball shrapnel from a mountain howitzer. There were no 
other incidents where similar weaponry was used by the U.S. military at 
anytime in that area. Thus, confirming unequivocally that this was 
indeed the Sand Creek Massacre Site.
    A Senate hearing was held as a result of the findings of the Site 
Study Act, which subsequently authorized the Sand Creek Massacre Site 
Establishment Act of 2000. This legislation designated more than 12,000 
acres of the Sand Creek Massacre Site in southeastern Colorado. 
However, the land had to be acquired from willing sellers only. The 
legislation also authorized the National Park Service, the Cheyenne and 
Arapaho Tribes of Oklahoma, the Northern Arapaho Tribe, the Northern 
Cheyenne Tribe and the state of Colorado to work in partnership to 
achieve the purposes of the act.
    Currently the National Park Service has acquired more than 900 
acres from private land-owners, and through Southwest Entertainment, a 
business partner of the C&A Tribes of Oklahoma, has acquired the 
``Dawson Property'' from Mr. & Mrs. William Dawson, encompassing more 
than 1400 acres and located at the intersection of Smokey Hill Trail 
and the Big Bend of Sand Creek--Thus, the village site of the Sand 
Creek Massacre of November 29th, 1864.
    The ``Dawson Property'' was acquired for 1.5 million dollars, 5 
times the appraised value, but having said that, Mr. Dawson has been 
the owner/caretaker of that area for more than 30 years and has kept 
that area in a rather pristine state. All of the artifacts that were 
found on the ``Dawson Property'' during the site study phase were kept 
by Mr. Dawson and he will be donating them to the project in honor of 
the late Last Bear (Luke Brady).
    The C&A Tribes of Oklahoma, the Northern Arapaho Tribe and the 
Northern Cheyenne Tribe have been working diligently under the 
provisions of Native American Graves Protection and Repatriation Act 
(NAGPRA) on the repatriation of Cheyenne and Arapaho human remains 
taken from the Sand Creek Massacre and currently stored at the Colorado 
Historical Society, the University of Nebraska at Lincoln and the Sam 
Nobles Museum of Oklahoma. Provided everything goes as it should, the 
tribes will repatriate these victims of genocide back to the Sand Creek 
Massacre Site as established by federal law.
    Laird and Colleen Cometsevah have done an exceptional amount of 
work in genealogy and oral histories in keeping the memory of the Sand 
Creek Massacre alive. The Northern Cheyenne Sand Creek Massacre 
Historic Site Project is doing similar work as well and will archive at 
the Chief Dull Knife College for curriculum development, research and 
other purposes. Western education does not often include shameful 
incidents like the Sand Creek Massacre and remains consistently 
repressive.
    S. 2173 proposes to put the C&A tribal property in Kiowa County of 
Colorado into federal trust under the Secretary of the Interior for the 
purposes authorized by the Sand Creek Massacre Site Establishment Act 
of 2000, on behalf of the consulting partnership: the Cheyenne and 
Arapaho Tribes of Oklahoma, the Northern Arapaho Tribe, the Northern 
Cheyenne Tribe, state of Colorado, the National Park Service, and 
especially the descendants of the Sand Creek Massacre. We urge 
immediate passage of S. 2173 entitled the ``Sand Creek Massacre 
National Historic Trust Act of 2004.''
    We understand that an agreement or lease will be negotiated between 
the National Park Service and the three tribes, providing for the 
inclusion of the Dawson Property as the core element of the National 
Historic Site, and the management of the Dawson Property by the 
National Park Service in consultation with the three tribes in 
accordance with the purposes and provisions of the Sand Creek Massacre 
Site Establishment Act of 2000. We look forward to working on that 
agreement or lease.
    While the Sand Creek Massacre Site is in the process of being 
restored through federal legislation, the actual on-site work to 
preserve the site in perpetuity is only now just getting started--We 
have many years of hard work ahead of us. It is essential that we have 
the continued support of U.S. Congress, it was after all a federal 
project to begin with.
    Again, distinguished members of the United States Senate, thank you 
for allowing me to testify today on a matter of profound significance 
to the Cheyenne and Arapaho Tribes of Oklahoma, the Northern Arapaho 
Tribe and the Northern Cheyenne Tribe and especially, for the 
descendants of the Sand Creek Massacre of November 29th, 1864.
                                 ______
                                 
                                ADDENDUM

    Mr. Chairman, there are two minor amendments to the bill as 
introduced. Both changes were made at the request of the National Park 
Service.
    The first change clarifies that this land will be taken into trust 
as part of the Sand Creek Massacre National Historic Site in 
perpetuity.
    The second change removes a limitation in the existing statute 
which states that land acquired from the State of Colorado can only be 
conveyed through donation. Striking this limitation will give the NPS 
additional flexibility in acquiring additional land for the site.

    Senator Thomas. Thank you, sir. I appreciate your 
statement.
    Now let us go on to Mr. Ziak, please.

 STATEMENT OF REX ZIAK, LEWIS AND CLARK AUTHOR AND HISTORIAN, 
                          NASELLE, WA

    Mr. Ziak. Thank you very much, Mr. Chairman and 
distinguished Senators. I really appreciate this opportunity to 
have this time to address you.
    In October 1806, the President of the United States 
received one of the most extraordinary letters ever sent to a 
President. The first two sentences of this letter must have 
caused him to jump up to his feet. The letter read--and I 
quote--``Sir, it is with pleasure that I anounce to you the 
safe arrival of myself and party at 12 O'Clk today at this 
place with our papers and baggage. In obedience to your orders 
we have penitrated the Continent of North America to the 
Pacific Ocean.''
    The author of this letter was Meriwether Lewis, and what he 
was doing was writing to President Thomas Jefferson informing 
him that this risky and dangerous expedition that they had 
planned across the continent to the ocean had been a success. 
And from that moment on, this becomes known as the Lewis and 
Clark Expedition, and its details and its events become so 
amazing in the minds of Americans that it just captivates the 
American population. And here we are 200 years later still 
studying and admiring this American history. It is in fact one 
of the most popular events in all of American history and 
studied and explored from the youngest of school children in 
our public schools to gray-haired scholars in the libraries of 
our universities.
    However, that moment of their arriving at the Pacific 
Ocean, that whole story has never been told. We do have Fort 
Clatsop, which preserves their winter camp site. However, that 
is simply part of the story. There is another half of the story 
that has not been explained, and this is Lewis and Clark's 
arrival at the Pacific Ocean. And these are sites that occur on 
the Washington shoreline prior to their arrival at Fort 
Clatsop.
    This arrival story is extremely compelling. There are three 
significant sites associated with this. The first one is one 
that Clark called Dismal Nitch. This is where, after traveling 
20 or 30 miles a day down the Columbia River, they come to the 
final point of land between them and the Pacific Ocean. Here 
they are stopped for 5 days. This is the part of the journals, 
just 6 or 8 miles from the ocean, where everything goes wrong. 
This is where, pinned down against the shore, waves wash over 
them, hail, thunder, lightning, rocks roll down on them. They 
have to abandon their camp and bury their canoes under rocks 
and take off on foot. This is where their clothes are falling 
apart on their bodies. William Clark writes in his journal, 
this is the most disagreeable time I have ever experienced. 
Dismal Nitch.
    Once they make it around this point after 5 days, they 
coast down river a couple miles, and here is another point of 
land and in front of them the Pacific Ocean. And William Clark 
says, I landed the canoes and formed a camp. This I could 
plainly see would be the extent of our journey by water in full 
view of the ocean, and this is the western end of the Lewis and 
Clark journey. This is where the men camped for 10 days in full 
view of the ocean. This is where they now begin to make plans 
for their homeward bound journey, and this is where they had 
that moment where they consulted the opinions of all the men, 
including Clark's slave and the Indian woman, Sacagawea, 
consulting their opinions, sort of a vote as to what they 
should do next. Station Camp is what Clark called it.
    The third site is the tip of Cape Disappointment. This is a 
rugged peninsula of volcanic black basalt rock extending out 
into the ocean, washed on one side by the ocean, on the other 
side by the waters of the Columbia River. Both Lewis and Clark 
made excursions down to this peninsula and camped there. This 
is, in fact, the only known place where Meriwether Lewis had 
direct contact with the Pacific Ocean.
    These three sites, when combined with the existing Fort 
Clatsop over in Oregon, as well as other historic sites in 
Oregon, will create an unparalleled historic experience. It 
will be possible for the public to travel down the Columbia 
River and follow along in Lewis and Clark's footsteps from 
place to place to place and, 200 years after they made this 
journey, be able to recreate this journey down to the ocean and 
crossing over to Fort Clatsop.
    Local people are very excited about this. They have been 
planning for years for hosting the people coming to the 
bicentennial, but this is something different. This is going to 
transform the region into a historic destination, and it is 
going to create opportunities, local businesses, cottage 
industries that do not exist now. The local community is very 
excited.
    For my own part, I strongly recommend that the committee 
approve S. 2167. Lewis and Clark and their party risked their 
lives and suffered unheard of hardships to reach that Pacific 
Ocean, and this is an experience that the public should be 
allowed to retrace and enjoy today and bring back to light this 
long overlooked chapter of great American history.
    Thank you very much.
    [The prepared statement of Mr. Ziak follows:]

   Prepared Statement of Rex Ziak, Historian, Naselle, WA, on S. 2167

    Mr. Chairman and honorable members of the Subcommittee, thank you 
for this opportunity to testify on Senate Bill 2167, which will create 
the Lewis and Clark National Historic Park in Washington and Oregon at 
the mouth of the Columbia River. I represent not only myself, but also 
the vast majority of the residents of this region as well as historians 
and enthusiasts from around the country, when I tell you that I 
wholeheartedly support this bill.
    In October 1806, the President of the United States received an 
extraordinary letter. The first two sentences must have caused him to 
leap to his feet with excitement. The letter read: ``Sir, It is with 
pleasure that I anounce to you the safe arrival of myself and party at 
12 O'Clk today at this place with our papers and baggage. In obedience 
to your orders we have penitrated the Continent of North America to the 
Pacific Ocean.''
    The author of this historic letter was Meriwether Lewis, and he was 
announcing to President Thomas Jefferson that the risky, dangerous 
expedition across the continent had been a success.
    The journey described to the president soon became known as the 
Lewis and Clark Expedition. It immediately captured the public's 
attention and has held that attention for two hundred years. It is, in 
fact, one of the most popular moments of this nation's history, 
captivating children as well as adults from coast to coast.
    However, the western end of the story of Lewis and Clark has never 
been correctly interpreted. Although there exists a replica of their 
winter campsite called Fort Clatsop, that is only half of the story.
    The other half of this history is missing. It is the story of Lewis 
and Clark's arrival at the ocean. This episode of their story has been 
misunderstood and overlooked until recently. and that is what Senate 
Bill 1267 will resolve and correct.
    The arrival story takes place at three separate locations in the 
lower Columbia along the Washington shore. First there is Dismal Nitch. 
This is the place where the explorers were stuck for five days; where 
rocks rolled down upon them, their clothes fell apart, they buried 
their canoes and abandoned camp. It was the scene of hardship and 
danger. Clark said it was the most disagreeable time he had ever 
experienced.
    The second site is Station Camp. This is the western end of the 
Lewis and Clark journey, where they arrived in full view of the ocean. 
The explorers camped at this picturesque site for ten days and this is 
where they took the now famous vote, which included the opinion of a 
slave and an Indian woman.
    The third site is the tip of Cape Disappointment. This rugged 
peninsula of ancient, basalt rock extends far out into the ocean and 
creates the northern side of the mouth of the Columbia River. Lewis and 
Clark both explored this site and camped here. It was, in fact, Lewis' 
only direct contact with the waters of the Pacific Ocean.
    These three locations, when combined with the existing Fort 
Clatsop, will create an unparalleled historic experience. This rare 
opportunity to connect these historic sites will allow the public to 
walk in the footsteps of history by retracing Lewis and Clark's final 
dozen miles to the ocean in the exact order and the exact location it 
was done 200 years ago.
    Local residents are excited about the expansion plans and look 
forward to hosting the visitors who will follow Lewis and Clark across 
the continent. This park will transform our region. The millions of 
expected visitors during the Bicentennial will provide an enormous 
boost to the local communities by attracting tourism vital to economic 
development. And it will not end with the Bicentennial. These historic 
sites when connected are of such importance and are so compelling that 
this region will become a historic destination. Citizens will continue 
to come to this place to see and experience what Lewis and Clark 
described when they finally reached the edge of the continent.
    For my own part, I strongly recommend that this committee approve 
Senate Bill 2167. Lewis and Clark's party risked their lives and 
suffered unimaginable hardship in order to reach the Pacific Ocean. The 
public wants to know this story. Senate Bill 2167 will allow access to 
these significant sites and bring to light this long-overlooked chapter 
of a great American history.

    Senator Thomas. Thank you, sir. Do you have your nickel?
    Mr. Ziak. I have one, sir.
    Senator Thomas. The new Lewis and Clark nickel. Great.
    Ms. Alexander.

   STATEMENT OF CAROL J. ALEXANDER, EXECUTIVE DIRECTOR, RITZ 
          THEATRE AND LaVILLA MUSEUM, JACKSONVILLE, FL

    Mr. Alexander. Thank you, Mr. Chair, and other members of 
the subcommittee. I am Carol Alexander, executive director of 
the finest arts institution in Jacksonville, Florida, and that 
is the Ritz Theatre and LaVilla Museum. Professionally and 
personally it is my mission to preserve the history and legacy 
of African-Americans both in Florida and in the United States 
of America.
    Preserving the history and land of American Beach 
specifically is a very big passion of mine, both as a landowner 
and as an historian. Preserving that 60-foot sand dune, which 
is a part of the endangered maritime forest, from developers 
has been something that the people of that beach have been 
concerned about, have been worried about because they want to 
protect that sand dune. It is imperative to protect and 
preserve this dune in perpetuity because it is one that 
protects or is a barrier to that island. For that reason, we 
request that it be included in the Timucuan Preserve National 
Park so that they can manage the dune.
    I would like to thank the committee and also I would like 
to thank Senator Nelson for championing this bill and also 
Congressman Crenshaw for introducing Senator Nelson's bill in 
the House. It has passed through the House already.
    I would like to add that the actual acreage donated by Jack 
Healen, president of the Amelia Island Plantation, is 8.5 
acres. Senator Nelson alluded to that and also Mr. Hoffman has 
alluded to that. It is not the 12.5 as we initially thought it 
would be.
    In 1935, A.L. Lewis, president of the Afro-American Life 
Insurance Company, purchased this beach property as a leisure 
and entertainment haven for African-Americans. This beach 
property is a little bit different than the property of 
Virginia Beach that is in the Keys that Senator Nelson 
mentioned. That beach property was set aside for African-
Americans to enjoy leisure time on the beach. This beach 
property was bought and owned by the Afro-American Life 
Insurance Company. A.L. Lewis named it American Beach. It is an 
historic beach community in Nassau County, Florida, as you well 
know, and it is still primarily owned by African-Americans, 
many of whom are descendants of the original owners. To name a 
few, Dr. Johnnetta Cole, who is president of Bennett College 
for Women in North Carolina, and also she is now the chairman 
of the United Way of America. And also Chief Justice Leander 
Shaw, who was the first black Supreme Court Justice in Florida.
    The Afro-American Life Insurance Company was originated in 
Jacksonville, Florida, and it was the first insurance company 
of Florida, either black or white. Mr. Lewis' great 
granddaughter, MaVynee Betsch, affectionately known as the 
Beach Lady, still resides on the beach and is revered for her 
colorful life as an environmentalist and for her work to 
preserve American Beach from development and environmental 
degradation.
    The history of American Beach began in America's most 
divided years of the 20th century when segregation laws did not 
allow African-Americans to frequent white beaches and resorts. 
American Beach was originally built as a beach resort for 
recreation and leisure for African-Americans to enjoy the 
beautiful ocean and the sand.
    Today the sand due, affectionately known as Nana, is part 
of the endangered maritime forest. It stands as one of the 
tallest. It is 60 feet tall and the last undeveloped, untouched 
dune system in Florida.
    The dune needs to be preserved for environmental and 
historical reasons. Environmentally, the dunes protect the 
natural resources of marine life and the development and 
protection of the flora and fauna in the vast southeast region 
of Florida. Historically, Nana is a sacred monument of history 
and legacy that reveals the stories of generations past. 
Developers are slowing moving in to change the course of 
history and to destroy the property that holds a chapter in 
America.
    MaVynee Betsch, the Beach Lady, all of you should know and 
meet her. She is not an elder and environmental champion. She 
is a member of 60 environmental organizations. She has been 
saluted and celebrated for her work in several ways, but in 
particular, with a dedication in the Audubon Society Handbook 
for Butterfly Watchers by Dr. Robert Pyle, and the most 
endangered marine mammal, the right whale number 1151 is named 
in her honor. The community wants her dream of preserving the 
beach and including Nana in the Timucuan Preserves for the 
protection of the wetlands and the uplands as a healthy, 
functioning environmental system, as well as an historic site 
for future generations to enjoy.
    As I mentioned earlier, Jack Healen, president of the 
Amelia Island Plantation Resort, generously donated Nana, the 
8.5 acres of untouched beach and sand dune, to the National 
Park Service to make its inclusion in the Timucuan Ecological 
and Historic Preserve possible.
    I hope this committee will feel the passion of preserving 
Nana and move this bill swiftly to the full Senate so this 
legislation can pass. It is up to us to protect and to preserve 
the beauty and majesty of America's natural treasures. 
Especially as we approach 2005, which will be the 70th 
anniversary of the founding of Florida's oldest African-
American beach community, American Beach.
    We have heard testimony from three of us of treasures of 
America. We have to contain, protect, preserve and behold both 
the joys and the horrors and the sacredness of America. Thank 
you.
    [The prepared statement of Ms. Alexander follows:]

  Prepared Statement of Carol J. Alexander, Executive Director, Ritz 
              Theatre and LaVilla Museum, Jacksonville, FL

    My name is Carol J. Alexander and I am the Executive Director of 
the historic Ritz Theatre & LaVilla Museum in Jacksonville, Florida. 
Professionally and personally it is my mission to preserve the history 
and legacy of African-Americans both in Florida and nationally.
    Preserving the history and land on American Beach, specifically 
preserving the 60 ft. sand dune, which is a part of the endangered 
maritime forest from developers, has been my passion as a landowner for 
several years. It is imperative to protect and preserve the dunes in 
perpetuity, hence, the request for the Timucuan Preserve National Park 
Service to acquire and manage the dunes.
    For this reason, I must thank the Committee on Energy and Natural 
Resources for considering bill S. 1672, to expand the Timucuan 
Ecological and Historic Preserve. I thank Senator Nelson for 
championing this bill in the Senate and Congressman Crenshaw for 
introducing Senator Nelson's bill in the House of Representatives. I 
would add that the actual acreage donated by Jack Healen, President of 
Amelia Island Plantation, to the Timucuan is 8.5 acres not 12.5 acres--
this has been corrected in the House version and I would ask that it be 
corrected in the Senate version too.
    In 1935, A.L. Lewis, President of the Afro-American Life Insurance 
Company purchased the beach property as a leisure and entertainment 
haven for African-Americans. He named it American Beach, a historic 
beach community in Nassau County, Florida still owned primarily by 
African-Americans, many who are the descendents of the original owners. 
To name only a few, Dr. Johnnetta Betsch Cole, renowned anthropologist 
and President of Bennett College for Women and Chairperson of the 
United Way of America and also Chief Justice Leander Shaw, first black 
Supreme Court Justice in Florida.
    The Afro-American Life Insurance Company of Jacksonville, Florida 
was the first insurance company owned by any Floridian, either black or 
white. Mr. Lewis' great granddaughter, MaVynee Betsch, affectionately 
referred to as the ``Beach Lady,'' still resides on American Beach and 
is revered for her colorful life as an environmentalist and for her 
work to preserve American Beach from development and environmental 
degradation.
    The history of American Beach began in America's most divided years 
of the 20th century, when segregation laws did not allow African-
Americans to frequent white beaches and resorts. American Beach was 
originally built as a beach resort for the recreation and leisure for 
African-Americans to enjoy the beauty of the ocean and sand.
    Today, the sand dune known affectionately, as ``Nana'' is part of 
the endangered maritime forest. It stands as one of the tallest (60 
ft.) and the last undeveloped, untouched dunes system in Florida. The 
dune needs to be preserved for environmental and historical reasons.
    Environmentally, the dunes protect the natural resources of marine 
life and the development and protection of the flora and fauna in the 
vast southeast region of Florida.
    Historically, ``Nana'' is a sacred monument of history and legacy 
that reveals stories of generations past. Developers are slowly moving 
in to change the course of history and destroy the property that holds 
a chapter in America.
    MaVynee Betsch, the ``Beach Lady'', now an elder and an 
environmental champion is a member of sixty environmental 
organizations. She has been saluted and celebrated for her work in 
several ways but in particular with a dedication in the Audubon Society 
Handbook for Butterfly Watchers by Dr. Robert Pyle and the most 
endangered marine mammal, the Right Whale #1151 is named in her honor. 
The community wants to make her dream of preserving the beach and 
including ``Nana'' in the Timucuan Preserves for the protection of the 
wetlands and upland as a healthy functioning environmental system as 
well as an historic site for future generations to enjoy.
    As I mentioned earlier, Jack Healen, President of Amelia Island 
Plantation Resort, generously donated, ``Nana'' the 8.5 acre of 
untouched beach sand dune to the National Park Service to make its 
inclusion in the Timucuan Ecological and Historic Preserve possible.
    I hope that this Committee will feel the passion of preserving 
``Nana'' and move this bill swiftly to the full Senate so that this 
legislation can pass. It is up to us to protect and preserve the beauty 
and the majesty of America's natural treasures. Especially as we 
approach 2005, the 70"' Anniversary of the founding of Florida's oldest 
African-American beach community<plus-minus> . . . American Beach!
    I thank you.

    Senator Thomas. We thank all of you for your testimony.
    Just one quick question. See if you can kind of sum it up a 
little bit. What has been the nature? This Lewis and Clark 
thing puts together a number of different parcels of land, I 
understand. Are they now parks or what is the ownership of 
these lands now?
    Mr. Ziak. No, sir, they are not parks. One is, in fact, 
underneath a highway. The other is a rest stop area owned and 
administered by the State that will be expanded slightly. The 
third, part of the Cape Disappointment, is actually a Coast 
Guard station, a State park, and there is BLM land there. So 
there will actually be the realignment of a highway that 
unfortunately borders right along the shore line of the 
Columbia River preventing any public access. So we will be 
straightening out, actually erasing that rather dangerous 
curve, making it a safer highway and creating access for the 
public to stand very, very close to where Lewis and Clark ended 
their westward journey.
    But, no, they are fragmented. These men would, of course, 
load up in their canoes and move, and so their course is kind 
of a hop-scotch as they move along. But you are capturing, by 
doing this, this point where they come so close and are 
stopped. 5 days for them is an eternity, but rather than give 
up, they just keep pressing and pressing, perseverance. And 
they make it around this final point, and then there is the 
western end. Then further on down where they made the excursion 
to the ocean before crossing to Fort Clatsop.
    Senator Thomas. Are these accessible to people now?
    Mr. Ziak. Barely. Dangerous. One is not. You really cannot 
stand at the point because it really is under a highway without 
any shoulder.
    Senator Thomas. Under a highway?
    Mr. Ziak. Yes.
    Senator Thomas. What are you going to do with the highway?
    Mr. Ziak. It is just asphalt, sir.
    Senator Thomas. Are you going to do away with it?
    Mr. Ziak. They are planning. They have a landscape 
architect already looking at this.
    Senator Thomas. So this is going to cost about $6 million. 
Is that right?
    Mr. Ziak. The realignment of the highway? I do not know. 
There are land acquisitions involved. There are other people 
that will have to answer that.
    Senator Thomas. I asked the Secretary. I think he said 
about $6 million, was it not?
    Mr. Ziak. There are three different sites. Does that 
include the Oregon site, Chip? The $6 million?
    Mr. Jenkins. Yes.
    Mr. Ziak. It does.
    Mr. Jenkins. The movement of the highway is paid for by the 
State and the creation of the park is paid for by the State.
    Senator Thomas. Thank you.
    Senator Akaka.
    Senator Akaka. Yes, Mr. Chairman. I want to commend our 
witnesses and thank you so much for your descriptive statements 
of the parks that you are talking about. I cannot help but 
think of how easy it is to remember Nana and also the trail all 
the way to the Pacific, as well as the Sand Creek Massacre 
site. I want to thank you for your descriptions.
    Mr. Chairman, I want to tell you that it is great to be 
able to support them. Thank you.
    Senator Thomas. Thank you, sir.
    Senator Campbell.
    Senator Campbell. I have a couple of small questions, Mr. 
Chairman. Maybe it is a little bit loaded, Mr. Ziak. It is 
along a related question I have had in my mind for a couple of 
weeks. Since you are interested in the Lewis and Clark 
Expedition, you know that the Mint is talking about taking 
Sacagawea's picture off the silver dollar. You have heard that 
or know that?
    Mr. Ziak. I have not heard that, sir.
    Senator Campbell. Senator Dorgan of North Dakota and I both 
wrote a letter of opposition to them doing that, but if you 
have not heard about it, then I guess I cannot ask you what 
your view is on it either, or can I?
    Mr. Ziak. All I can say is I rarely run into them out in 
the public. I rarely get them back as change.
    Senator Campbell. That is because collectors usually buy 
those up before the public ever sees them. But they say the 
reason they want to take her picture off it is that collectors 
are not buying them very fast, and our contention is they are 
not marketing them very well. Maybe they would sell faster if 
they wanted to.
    Well, it is not really an important question.
    Thank you for your very nice, testimony, Ms. Alexander. It 
was very eloquent. I was trying to listen carefully but I think 
I missed a couple things. Whose language is Timucuan?
    Mr. Alexander. The Indians, the Timucuan Indians.
    Senator Campbell. From a tribe. I see. Good. That was all.
    Maybe to my brother, Steve Brady. The Sand Creek site is 
really close to becoming a reality. There is really not any 
opposition to this bill, a few minor changes. The Park Service 
supports it too. How do you sense how the tribes would work 
with the Park Service using some of that land for cultural 
purposes or religious purposes or reburial of remains or things 
of that nature?
    Mr. Brady. Well, it is in my testimony. It says we 
understand that an agreement or lease will be negotiated 
between the National Park Service and the tribes, providing for 
the inclusion of the Dawson property, the continuation of 
ongoing consultation and management and access. Ceremonial 
access especially I think is really important.
    Senator Campbell. Do you envision some kind of an 
interpretive center there some day?
    Mr. Brady. Possibly, with the consultation of all the 
tribes and NPS and certainly the State.
    Senator Campbell. But right now, the tribes have no plans 
for buildings or putting anything there.
    Mr. Brady. I do not think we have reached that point yet.
    Senator Campbell. No further questions, Mr. Chairman.
    Senator Thomas. Well, thank you again. There may be some 
other questions in the next day or two. If there are, we will 
forward them to you. Otherwise, thank you all for being here.
    The committee is adjourned.
    [Whereupon, at 3:36 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

          United States Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                    Washington, DC, August 4, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are answers to the follow-up questions 
from the hearing held by the Subcommittee on National Parks on May 20, 
2004, on S. 1672, S. 1789, H.R. 1616, S. 2167, and S. 2173. These 
responses have been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter. We apologize for the delay in our response.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]

                       S. 1672, TIMUCUAN PRESERVE

    Question 1a. The bill proposes to acquire 12.5 acres. This has been 
reduced to 8.5 acres because certain property owners objected to the 
proposal. How does the local community view the donation of this land?
    Answer. The local community supports the donation to the National 
Park Service, as proposed in S. 1672.
    Question 1b. What is the view of Starwood Hotels and Resorts (owner 
of the neighboring Sheraton Resort)?
    Answer. We are not aware of any Sheraton Resort or Starwood Hotels 
and Resorts' property-on Amelia Island.
    Question 1c. Does the Park Service plan to eventually obtain the 
entire 12.5 acres?
    Answer. We understand that Amelia Island Plantation plans to donate 
8.5 acres to the NPS. At this time, the NPS has no plans to acquire the 
other 4 acres currently owned by two other private individuals. The 
12.5-acre area, proposed to be added to the boundary, include natural 
and cultural resources important to the story of American Beach. 
Currently, more than 50 governmental entities and several hundred 
private landowners work together to protect the resources found within 
the Timucuan Preserve. Protection of these lands can be achieved 
through partnerships similar to the ongoing partnerships within the 
Preserve and would not require NPS to own the entire 12.5 acres.
    Question 2a. The Amelia Island Plantation has arranged to donate 
the land at American Beach to the National Park Service. Who currently 
manages the land?
    Answer. The land is currently managed as conservation and buffer 
lands by the Amelia Island Plantation Corporation.
    Question 2b. Will the Park Service be expected to compensate Amelia 
Island Plantation for the land?
    Answer. No.
    Question 3a. The ``Nana'' sand dune was mentioned in the hearing as 
ecologically important as a barrier during storms and as endangered 
species habitat. Have any other areas been identified with similar 
characteristics for future acquisition?
    Answer. No, the only remaining undeveloped dune associated with 
Nana in this area is divided from the main dune by a road. This dune is 
included in the 12.5 acres proposed for inclusion in the boundary. The 
only other undeveloped dunes that are in the area are incorporated 
within current units of the Florida Park System. Some of these parks 
are within the current boundary of the Timucuan Preserve and are 
managed by the Florida Park Service. There are no federally listed 
endangered or threatened species present in this area.
    Question 3b. What is the approximate size of Amelia Island (in 
acres)?
    Answer. According to the Nassau County Property Appraisers Office, 
Amelia Island occupies approximately 17,540 acres.
    Question 3c. What is the approximate size of Timucuan Preserve (in 
acres)?
    Answer. The Timucuan Preserve encompasses approximately 46,000 
acres.
    Question 3d. Which endangered or threatened species can be found on 
``Nana'' and approximately how much of their habitat (in acres) has 
been lost to development on the island?
    Answer. The dune does not contain any federally listed endangered 
or threatened species. In a 1992 evaluation of 191 acres, the Florida 
Natural Areas Inventory ranked the dune and maritime hammock as 
outstanding based on species diversity, structure, degree of 
disturbance and exotic invasion. The evaluation also concluded that, of 
the 191 acres, only 22 acres which included the dune and maritime 
hammock were preserved, 4 acres were donated to the County for Burney 
Park, 35.7 acres were developed as a golf course and the remaining 
approximately 129 acres was developed for homes, commercial and resort 
properties of Osprey Village, Amelia Island Plantation and Summer 
Beach.

 S. 1789 AND H.R. 1616, MARTIN LUTHER KING NATIONAL HISTORIC SITE LAND 
                                EXCHANGE

    Question 4. If an appraisal has not been conducted, how do you know 
the lands to be exchanged are of equal value?
    Answer. A formal appraisal has not been done on these properties. 
However, in 2001, in anticipation of this exchange, the NPS Southeast 
Region conducted an informal appraisal and determined that the lands 
were of approximately equal value. If a difference does exist, we 
expect that the NPS property would have the slightly higher value. The 
city of Atlanta has an additional two acres of land adjacent to the 
city land proposed for exchange and is agreeable to including 
additional city land to make the lands exchanged to be of equal value 
if necessary.
    Question 5. You stated that the properties on Edgewater Avenue were 
purchased by the NPS to preserve them, once the land exchange is 
completed what local agreements or ordinances are in place to assure 
that the exchanged property will be protected in the future?
    Answer. The land to be exchanged is within the Martin Luther King, 
Jr. Historic District. Atlanta's Urban Design Commission must approve 
any changes to properties in the District. The commission, whose 
mission is to identify, protect, enhance and perpetuate the use of 
buildings, sites, and districts of special character, historic 
interest, or aesthetic value, nominates and regulates designated 
buildings and districts identified as historic. The NPS has been 
consulted on all matters within the district and actively participates 
in consultations regarding proposed changes within the district. This 
area also has active community organizations that are committed to 
protecting the historic integrity of the neighborhood.

           S. 2167, LEWIS AND CLARK NATIONAL HISTORICAL PARK

    Question 6a. The sites to be included in the historical park are 
spread out over a large area. How will the park visitor get coordinated 
information about all the sites at the Historical Park?
    Answer. In anticipation of possible passage of S. 2167, the NPS, 
Washington State Parks and Oregon State Parks managers have discussed 
how to coordinate visitor services. The managers recognize that 
providing visitors coordinated information, including trip planning 
information, local logistical information, and interpretation, is a top 
priority.
    In addition, park managers are working with local Lewis and Clark 
Bicentennial organizers to produce a prototype trip planner for the 
region, and to develop a common web portal to provide visitor 
information. Park managers also are working more closely with four-
Chambers of Commerce, which operate five visitor contact stations in 
the local communities. Discussions are now underway with the Chambers 
of Commerce to see if the Bicentennial trip planner could be adapted to 
serve the needs of the parks and local businesses beyond the 
bicentennial years.
    Question 6b. What are the benefits to the visitor of this 
consolidated management?
    Answer. Our efforts to coordinate visitor information will make 
planning a visit to the Lewis and Clark related parks much easier. 
Currently, visitors must contact each of the five individual federal 
and state parks to obtain information and make reservations. 
Eventually, we anticipate that visitors will be able to access 
information about the five parks at the same time as well as 
consolidate the payment of entrance fees through the purchase of a 
common pass. Greater coordination also will ensure that visitors are 
provided a more comprehensive picture of the Lewis and Clark story, 
whether they choose to tour historic sites, view interpretive exhibits, 
or participate in other activities in the parks.
    Question 7a. Are all sites being recommended for inclusion 
currently being managed by the National Park Service?
    Answer. No. S. 2167, as amended, would include in the new boundary 
of the Lewis and Clark National Historical Park a significant amount of 
land not currently managed by NPS. First, S. 2167 authorizes the NPS to 
acquire and manage the areas known as Clark's Dismal Nitch and Station 
Camp. In a third area, Cape Disappointment, federal lands would 
immediately be transferred to NPS management while federal lands 
subject to any withdrawals, for the most part, would be transferred at 
a later date. The bill would, however, revoke the withdrawal of a 20-
acre parcel of federal land and direct the Secretary to establish a 
memorial to Thomas Jefferson on that parcel.
    While the bill would provide for NPS management at Cape 
Disappointment, it also would authorize the Secretary to enter into an 
agreement with the State of Washington to administer land. Washington 
State Parks currently administers many of these lands through 
agreements with other federal agencies. The NPS fully intends to 
continue such an arrangement with the State for all lands managed by 
NPS at Cape Disappointment, except for the 20-acre parcel for the 
memorial to Thomas Jefferson.
    Question 7b. Is any land proposed for acquisition?
    Answer. Yes, the NPS would acquire additional land within the new 
proposed boundary if S. 2147 is enacted, if funds are made available 
for the purchase of private land from willing sellers, and if, as 
planned, the State of Washington transfers some of its property to the 
NPS. At Dismal Nitch, NPS would acquire by donation about 30 acres from 
the State of Washington and would purchase 160 acres from private 
owners. At Station Camp, NPS would acquire by donation about 15 acres 
from the State of Washington and would purchase in fee or an easement 
on approximately 455 acres from private owners. At Cape Disappointment, 
the NPS would eventually acquire about 1,140 acres through transfer of 
federal lands. The NPS anticipates that all but the 20-acre parcel for 
the memorial to Thomas Jefferson would be managed by Washington State 
Parks.
    In addition, S. 2167 would retain the authority for the National 
Park Service to acquire up to 1,375 acres at Fort Clatsop that was 
enacted in 2002.
    Question 8a. S. 2167 is a joint effort by the states of Oregon and 
Washington and the Federal government. What is the role of each state?
    Answer. We have agreed upon the general responsibilities of each 
state, however, if the legislation passes, more specific roles will be 
discussed. The responsibilities discussed this far are as follows:
Washington State

  <bullet> Maintain and operate Cape Disappointment State Park in 
        accordance with applicable federal laws, regulations and 
        policies.
  <bullet> Maintain and operate Fort Columbia State Park.
  <bullet> Realign Highway 101, construct a new park at Station Camp 
        and donate this new park to the NPS.
  <bullet> Construct new visitor facilities at Clark's Dismal Nitch and 
        donate these to the NPS.
  <bullet> In partnership with the NPS and Oregon State Parks, develop 
        and implement appropriate plans for providing visitor services 
        and resource protection in the context of the entire Lewis and 
        Clark National Historical Park.
  <bullet> Provide technical assistance to the NPS for the management 
        of the park.
Oregon State

  <bullet> Maintain and operate Fort Stevens and Ecola State Parks.
  <bullet> In partnership with the NPS and Washington State Parks, 
        develop and implement appropriate plans for providing visitor 
        services and resource protection in the context of the entire 
        Lewis and Clark National Historical Park.
  <bullet> Provide technical assistance to the NPS for the management 
        of the park.

    Question 8b. What is the role of the Federal government?
    Answer. The Federal government:

  <bullet> Maintain and operate all of the units under federal 
        jurisdiction within the Lewis and Clark National Historical 
        Park in accordance with applicable laws, regulations and 
        policies.
  <bullet> Work as a partner with Washington State Parks and Oregon 
        State Parks, other state agencies, and local entities to 
        develop and implement plans for providing visitor services and 
        resource protection.
  <bullet> In partnership with these state agencies, provide technical 
        assistance for the management of the affiliated areas.

    Question 8c. How much will it cost to complete the entire proposal 
including realignment of the highway and restoration of the current 
highway location?
    Answer. We estimate that land acquisition for the added areas will 
cost $2.2 million to $3.0 million. This estimate includes $700,000 
spent by the State of Washington to acquire the land for the 
realignment of Highway 101. We estimate that development costs for 
visitor facilities will cost approximately $5.1 million to $7 million. 
This estimate includes $3 million spent by the State of Washington to 
develop a park at Station Camp and visitor facilities at Clark's Dismal 
Nitch, and about $2.8 million to realign Highway 101. Operations and 
maintenance costs are estimated at $127,000 per year for the new NPS 
sites.
    Question 8d. How much of the total cost will be borne by each state 
and the Federal government?
    Answer.
Estimated land acquisition costs

  <bullet> $1.5 million to $2.3 million for the NPS.
  <bullet> $700,000 for the State of Washington to acquire land for the 
        realignment of Highway 101.
Estimated development costs

  <bullet> $2.1 million to $4 million for the NPS.
  <bullet> $3 million for the State of Washington for park facilities, 
        and $2.8 million for the realignment of Highway 101.
Estimated operations and maintenance costs:

  <bullet> $127,000 for minimal operations of the new NPS sites.

    Question 8e. How will the maintenance backlog be affected by 
implementation of this project?
    Answer: Funds NPS uses from its construction budget for development 
of the new areas of the park would not be available for maintenance 
backlog projects within the National Park System. However, as noted 
above, much of the development costs associated with the new sites 
included in the Lewis and Clark National Historical Park would be 
assumed by the State of Washington, so the impact on the NPS' 
construction budget would be far less than might normally be the case 
with an expansion of this size.

                      S. 2173, SAND CREEK MASSACRE

    Question 9a. Can the public visit and receive interpretive material 
at the Sand Creek National Historical Site?
    Answer. The law authorizing Sand Creek Massacre National Historic 
Site required that ``sufficient'' land be acquired from willing sellers 
``to provide for the preservation, memorialization, commemoration, and 
interpretation of the Sand Creek Massacre'' before the area would be 
established as a national historic site. Therefore, the site is closed 
to the public until established. However, the public can receive 
interpretive material via the park website, by mail, and through 
interpretive programs provided off-site by a National Park Service 
Ranger.
    Question 9b. When do you expect it to be open to the public?
    Answer. If this legislation passes and the Secretary establishes 
the site, it is estimated that the site could be fully open to the 
public in approximately two years. Two years allows for the development 
of plans, visitor facilities, parking, restrooms, and other facilities. 
Once established, it may be possible to open the site on a limited 
basis prior to it being fully open.
    Question 10a. The testimony states that the land will be 
transferred to DOI and held in trust by the Secretary. What will be the 
duties and responsibilities of the Secretary in managing the Trust?
    Answer. As we mentioned in testimony, S. 2173, as introduced, 
contained several provisions concerning the Secretary's trust 
responsibility that were confusing and unclear. We suggested several 
clarifying amendments during testimony and appreciate that S. 2173, as 
amended by the Committee, reflects these concerns. S. 2173, as amended, 
states that the trust property be administered ``. . . as part of the 
Sand Creek Massacre National Historic Site, only for historical, 
traditional, cultural, and other uses in accordance with the Sand Creek 
Massacre National Historic Site Establishment Act . . . .''
    Thus, the parameters of the Secretary's trust responsibilities for 
this land are more clearly prescribed in S. 2173, as amended. For 
example, the Sand Creek Massacre National Historic Site Establishment 
Act (Act) provides, among other things, that the Secretary manage the 
site to protect and preserve the site including the topographic 
features, artifacts, other physical remains, and the cultural landscape 
and that the Secretary interpret the natural and cultural resource 
values of the site, provide for public understanding and appreciation 
of and preserve for future generations those values, and to 
memorialize, commemorate and provide information to visitors. Other 
provisions in the Act describe the Secretary's management 
responsibilities, including the need to provide reasonable access to 
the site by descendants and tribal members.
    Question 10b. Will any income be generated for the land and managed 
as part of the Indian Trust Fund?
    Answer. No plans currently exist that will generate income for the 
land that will be managed as part of the Indian Trust Fund.
                                 ______
                                 
               Northern Cheyenne Sand Creek Office,
       Northern Cheyenne Sand Creek Massacre Historic Site 
                                                 Committee,
                                      Lame Deer, MT, July 13, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Re: S. 2173

    Dear Senator Thomas: Thank you for your letter of June 14, 2004. 
The following responds to the questions about the above bill posed in 
that letter.
    Please let me know if I can provide any additional information 
regarding this very important bill. We have been working with 
congressional staff on final adjustments for the upcoming mark-up, and 
look forward to passage of the bill during the current session.
            Very truly yours,
                                          Steve Brady, Sr.,
                                                          Co-Chair.
[Enclosure.]
    Question 1a. The National Park Service currently owns about 920 
acres at the historic size. S. 2173 (sic) authorizes the transfer of an 
additional 1,465 acres. How much additional land, including private and 
state land, is within the boundary of the entire historic site?
    Answer. The Sand Creek National Historic Site Establishment Act of 
2000 provides (in section 4(b)(1)) that the historic site consists of 
approximately 12,480 acres. After deducting the 920 acres and the 1,465 
acres, the remaining site acreage will be 10,095 acres.
    Question 1b. Do you anticipate adding additional land to the 
National Park site?
    Answer. We hope to acquire additional land within the 12,480 acres. 
We do not anticipate expanding the site beyond 12,480 acres.
    Question 2. The land proposed for addition to the historic site 
includes four buildings. Will the buildings be retained and used after 
transfer?
    Answer. The four structures on the 1,465 acres covered by S. 2173 
include a ranch house, shop building, corrals and a small lean-to type 
structure adjacent to the corral. At the last consultation meeting 
between the National Park Service and the three tribes (Northern 
Cheyenne Tribe of Montana, Northern Arapahoe Tribe of Wyoming, Cheyenne 
and Arapahoe Tribes of Oklahoma), a general consensus was reached that 
the ranch house should be eliminated due to the amount of renovation 
that would be necessary to make it usable. The shop, corrals and 
associated stalls may all be used after the transfer.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                              Washington State Legislature,
                                         Olympia, WA, May 18, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chair and Committee Members: We are writing to express our 
support for Senator Cantwell's Senate Bill 2167, which will be heard by 
your committee on Thursday, May 20, 2004.
    As you know, next year is the 200th anniversary of the Lewis & 
Clark Corps of Discovery Expedition. The area which we represent in 
southwest Washington is the location of several critically important 
historical sites of the Lewis & Clark Expedition. Although many 
important sites exist all along the Lewis and Clark National Historic 
Trail, the extraordinary history related to the Lewis & Clark 
Expedition's arrival at the Pacific Ocean is best realized at three 
sites on the lower Columbia River. Senate Bill 2167, if passed into 
law, would provide overarching coordination between the States of 
Washington and Oregon, by establishing a, National Historical Park in 
Oregon and in Washington. We are convinced that the new designation 
provided in Senator Cantwell's bill will allow for the best operation 
and security of these precious historical sites.
    We are proud to represent the 19th Legislative District in 
Washington's State Legislature. Senate Bill 2167, which would designate 
Clark's Dismal Nitch, Station Camp, and Cape Disappointment as part of 
the Lewis and Clark National Historic Park, are all located within our 
district. It was at Station Camp that Meriwether Lewis and William 
Clark held an election in order to determine the safest and best 
location for the group to spend the winter. Every single man and woman 
was allowed one vote--including Sacajawea, a Native American woman, and 
York, an African-American. What occurred at Station Camp is something 
to be proud of in this nation's history.
    Senate Bill 2167 enjoys the broad support of local citizens, 
county, state mid municipal governments, port districts, civic groups, 
and public safety organizations. Local stakeholders were involved with 
its development at every stage, providing input from inception until 
final drafting.
    They brought forward and addressed important issues regarding 
tourist accommodation and rest rooms facilities, highway safety and 
signage, public boating and swimming safety. Because of the integral 
participation on the part of local entities, the legislation has wide 
support in the region.
    With passage of this bill, we anticipate maximum cooperation 
between Oregon's and Washington's departments which oversee and 
regulate transportation, tourism, agriculture, fisheries and public 
health. The upcoming bicentennial events will bring hundreds of 
thousands of visitors to our rural areas. Creation of a Lewis & Clark 
National Historical Park, as envisioned in Senator Cantwell's bill, 
will help manage this anticipated influx of visitors by providing an 
oversight and decision making institution.
    We hope that you will favorably consider Senator Cantwell's 
proposal. It has our support and that of our constituents.
    We greatly appreciate your attention and consideration.
            Respectfully,
                                   Mark L. Doumit,
                                           State Senator,

                                   Brian Hatfield,
                                   Brian Blake,
                                           State Representatives.
                                 ______
                                 
                                   Northern Cheyenne Tribe,
                                     Lame Deer, MT, March 30, 2004.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Ben Nighthorse Campbell,
Chairman, Committee on Indian Affairs, U.S. Senate, Washington, DC.
Hon. Richard W. Pombo,
Chairman, Committee on Resources, U.S. House of Representatives, 
        Washington, DC.

Re: S. 2173, Sand Creek Massacre National Historic Site Trust Act of 
2004

    Dear Senator Dominici: On behalf of the Northern Cheyenne Tribe and 
the Northern Cheyenne Sand Creek Massacre Historic Site Project 
Committee, submitted herewith is a letter of support for the proposed 
legislation Senate Bill S.2173 entitled the Sand Creek Massacre 
National Historic Site Trust Act of 2004' pending before U.S. Congress.
    The Northern Cheyenne Tribe and the Northern Cheyenne Sand Creek 
Massacre Historic Site Project Committee support the immediate 
enactment of the proposed Senate Bill S. 2173 to place in federal trust 
as a part of the Reservation of the Cheyenne and Arapaho Tribes of 
Oklahoma, the Sand Creek Massacre village site formerly known as the 
``Dawson Property,'' located in Kiowa County in the state of Colorado 
solely for the purposes authorized by the Sand Creek Massacre National 
Historic Site Act.
    The Northern Cheyenne Tribal Council has consistently supported the 
efforts to protect and preserve the Sand Creek Massacre Site in 
southeastern Colorado. The Tribal Council, subject to their review and 
enactment, currently has a draft resolution of support pending for 
their consideration.
    Please forward all concerns to: Otto Braided Hair, Director, 
Northern Cheyenne Sand Creek Office, PO Box 1350, Lame Deer, MT. 59043, 
Ph# (406) 477-8026, Fax (406) 477-8021 or E-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93e0f2fdf7f0e1f6f6f8d3e1f2fdf4f6e4f6f1bdfdf6e7bd">[email&#160;protected]</a>
            Respectfully submitted,
                                        John J. Woodenlegs,
                                                    Vice President.
                                 ______
                                 
                          Bureau of Indian Affairs,
                                  Northern Cheyenne Agency,
                                     Lame Deer, MT, April 14, 2004.
Geri Small,
President, Northern Cheyenne Tribe, Lame Deer, MT.
    Dear President Small: Enclosed is the original of Northern Cheyenne 
Tribal Resolution No. DOI-068 (2004) enacted by the Council on April 7, 
2004 and received in this office on April 7, 2004.
    Resolution No. DOI-068 (2004)--supports Senate Bill S. 2173 
entitled ``Sand Creek Massacre National Historic Site Trust Act of 
2004''.
    Resolution No. DOI-068 (2004) is hereby noted. The Northern 
Cheyenne Tribal Council has the authority to take this action via 
Article IV, Section 1(r) of the Tribe's Amended Constitution and 
Bylaws.
    All necessary copies of this resolution have been retained for our 
files
            Sincerely,
                                         Marjorie Eagleman,
                                                    Superintendent.
[Enclosure.]
                                 ______
                                 
    TRIBAL COUNCIL OF THE NORTHERN CHEYENNE TRIBE NORTHERN CHEYENNE 
                     RESERVATION LAME DEER, MONTANA

    A RESOLUTION of the Northern Cheyenne Tribal Council supporting 
Senate Bill S. 2173 entitled ``Sand Creek Massacre National Historic 
Site Trust Act of 2004,'' now pending before the U.S. Congress that 
proposes to place in federal trust as part of the reservation of the 
Cheyenne and Arapaho Tribes of Oklahoma, the Sand Creek Massacre 
village site, formerly known as the ``Dawson property,'' located in 
Kiowa County in the State of Colorado that was acquired by Southwest 
Entertainment and subsequently gift deeded to the Cheyenne and Arapaho 
Tribes of Oklahoma.
    WHEREAS the Northern Cheyenne Tribal Council is the governing body 
of the Northern Cheyenne Tribe, as authorized by its amended 
Constitution and Bylaws, approved by the Secretary of the Interior on 
May 31, 1996; and
    WHEREAS the Northern Cheyenne Tribal Council is empowered to 
cultivate and preserve the culture of the Northern Cheyenne Tribe under 
Article IV Section 1.(l) of the Constitution of the Northern Cheyenne 
Tribe as amended in 1996; and
    WHEREAS Colonel John Chivington and federal troops attacked without 
provocation the peaceful Cheyenne village of Cheyenne Chiefs Black 
Kettle and White Antelope at Sand Creek in the Territory of Colorado on 
November 29h of 1864 where many Cheyenne women, children and elders 
were brutally massacred; and
    WHEREAS U.S. Congress admitted responsibility to the atrocities 
committed at Sand Creek and promised reparations through Article 6 of 
the Cheyenne and Arapaho Treaty of Little Arkansas of 1865 and this 
treaty obligation remains unfilled; and
    WHEREAS the Northern Cheyenne Tribal Council supported by 
resolution in 1993 the repatriation of Cheyenne victims of Sand Creek 
Massacre from the Smithsonian Institution in Washington, D.C. to Concho 
Agency of the Cheyenne and Arapaho Tribes of Oklahoma in Concho, 
Oklahoma; and
    WHEREAS the Northern Cheyenne Tribal Council supported by 
resolution the ``Sand Creek Massacre National Historic Site Study Act 
of 1998'' (Public Law 105-243) and the ``Sand Creek Massacre National 
Historic Site Establishment Act of 2000'' (Public Law 106-465) (the 
``Sand Creek Massacre National Historic Site Act''); and
    WHEREAS the Northern Cheyenne Sand Creek Massacre Historic Site 
Project Committee (the ``Committee'') is delegated and authorized to 
represent the Northern Cheyenne Tribe and the Northern Cheyenne Sand 
Creek Descendants by Northern Cheyenne Tribal Council Resolution DOI-
145(01) on all matters appertaining to the ``Sand Creek National 
Historic Site Establishment Act of 2000'' (Public Law 106-465); and
    WHEREAS the ``Committee'' is currently working with representatives 
from Cheyenne and Arapaho Tribes of Oklahoma and the Northern Arapaho 
Tribe of Wind River Reservation for the repatriation of human remains 
of victims of the Sand Creek Massacre from the Colorado Historical 
Society in Denver, Colorado, University of Nebraska at Lincoln, 
Nebraska and the Sam Noble Museum of Norman, Oklahoma back to the Sand 
Creek Massacre National Historic Site in southeastern Colorado; and
    WHEREAS the Sand Creek Massacre Village Site formerly known as the 
``Dawson Property'' located in Kiowa County in the State of Colorado 
acquired by Southwest Entertainment and subsequently gift deeded to the 
Cheyenne and Arapaho Tribes of Oklahoma; and
    WHEREAS that the Northern Cheyenne Tribal Council supports the 
taking of Sand Creek Massacre Village Site into federal trust, on the 
condition that it be managed and used as part of the National Historic 
Site solely for the purposes authorized by the Sand Creek Massacre 
National Historic Site Act, including access and use by the Northern 
Cheyenne Tribe and its members as provided in the Sand Creek Massacre 
National Historic Site Act, and the foregoing would be accomplished by 
enactment of Senate Bill S. 2173; now
    THEREFORE BE IT RESOLVED that the Northern Cheyenne Tribal Council 
hereby supports the immediate enactment of Senate Bill S. 2173; and
    BE IT FINALLY RESOLVED, that the Northern Cheyenne Tribal Council 
has authorized by Resolution DOI-145(01) the Northern Cheyenne Sand 
Creek Massacre Historic Site Project Committee to represent the 
Northern Cheyenne Tribe and the Northern Cheyenne Sand Creek 
Descendants on all matters appertaining to the Sand Creek Massacre 
National Historic Site Act.
    PASSED, ADOPTED AND APPROVED by the Northern Cheyenne Tribal 
Council with nine (9) votes for passage and adoption and zero (0) votes 
against passage and adoption this 7th day of April, 2004.
            ATTEST:
                                   Charlene Robinson,
                                           Secretary, Northern Cheyenne 
                                               Tribe,

                                   Geri Small,
                                           President, Northern Cheyenne 
                                               Tribe.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
